<html>
<title> - BRIDGING THE GAP: AMERICA'S WEATHER SATELLITES AND WEATHER FORECASTING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
			    BRIDGING THE GAP:
                      AMERICA'S WEATHER SATELLITES
                        AND WEATHER FORECASTING

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                            Serial No. 114-5

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                                ___________
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-883PDF                    WASHINGTON : 2015                         

              
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  
             
              
              
              
              
              
              
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.          ZOE LOFGREN, California
DANA ROHRABACHER, California         DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL                    FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       SUZANNE BONAMICI, Oregon
MO BROOKS, Alabama                   ERIC SWALWELL, California
RANDY HULTGREN, Illinois             ALAN GRAYSON, Florida
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, TEXAS
RANDY K. WEBER, Texas                KATHERINE M. CLARK, Massachusetts
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR           SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   DON S. BEYER, JR., Virginia
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
LAMAR S. SMITH, Texas
                                 ------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
JIM BRIDENSTINE, Oklahoma
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           February 12, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    16

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    18

Statement by Representative Donald S. Beyer, Jr, Ranking Minority 
  Member, Subcommittee on Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    19
    Written Statement............................................    20

                               Witnesses:

Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    21
    Written Statement............................................    24

Dr. Stephen Volz, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Services, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    49
    Written Statement............................................    52

Mr. Steven Clarke, Director, Joint Agency Satellite Division, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    66
    Written Statement............................................    68

Discussion.......................................................    72

             Appendix I: Answers to Post-Hearing Questions

Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office.......................    98

Dr. Stephen Volz, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Services, National Oceanic and 
  Atmospheric Administration.....................................   102

Mr. Steven Clarke, Director, Joint Agency Satellite Division, 
  National Aeronautics and Space Administration..................   120

Dr. Alexander MacDonald, President, American Meteorological 
  Society; Director, Earth System Research Laboratory, National 
  Oceanic and Atmospheric Administration; and Chief Science 
  Advisor, Office of Oceanic and Atmospheric Research, National 
  Oceanic and Atmospheric Administration.........................   128

Mr. John Murphy, Director, Office of Science and Technology, 
  National Weather Service, National Oceanic and Atmospheric 
  Administration.................................................   137

                           BRIDGING THE GAP:.
                      AMERICA'S WEATHER SATELLITES.
                        AND WEATHER FORECASTING

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                  House of Representatives,
                      Subcommittee on Environment &
                          Subcommittee on Oversight
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee on Environment] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    Chairman Bridenstine. The Subcommittees on the Environment 
and Oversight will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time. Is there any objection? 
No objection.
    Good morning. Welcome to the today's hearing: ``Bridging 
the Gap: America's Weather Satellites and Weather 
Forecasting.'' In front of you are packets containing the 
written testimony, biographies, and Truth in Testimony 
disclosures for today's witnesses.
    For opening statements, I will recognize myself for five 
minutes and then I will turn to the Ranking Member and the 
Chairman on Oversight and the Ranking Member on Oversight.
    Good morning, and welcome to the first Environment 
Subcommittee hearing for the 114th Congress. I want to thank 
the Full Committee Chairman, Lamar Smith, for his continued 
leadership.
    I would like to congratulate Mr. Loudermilk of Georgia for 
his assignment as the Chairman of the Oversight Subcommittee. 
Welcome, and congratulations.
    I would like to welcome back the Ranking Member, Ms. 
Bonamici of Oregon, who I look forward to working with in this 
Congress, and we have worked very well together in the past and 
looking forward to another great Congress.
    And I would like to congratulate Mr. Beyer of Virginia for 
his assignment as the Ranking Member of Oversight on this 
Subcommittee, so congratulations and welcome.
    This Committee has held numerous hearings over the years on 
NOAA's weather satellite programs. Today we continue this 
oversight by examining the status of NOAA's two primary 
satellite systems, the Joint Polar Satellite System (JPSS) and 
the Geostationary Environmental Operational Satellite System 
(GOES). These satellites collect vital data that is fed into 
the numerical weather models that are used by meteorologists to 
make our forecasts, and where I come from in the great State of 
Oklahoma, critically important data for predicting 
thunderstorms and tornados.
    These two programs comprise the lion's share of funding for 
NESDIS, the satellite office at NOAA. In the newly released 
Fiscal Year 2016 budget request, NESDIS accounts for over $2 
billion, roughly 40 percent of the NOAA's total budget. Just 
seven years ago, in 2008, NOAA's budget for satellites was less 
than $1 billion and was roughly one-quarter of NOAA's overall 
spending. The NESDIS budget has grown dramatically over the 
last decade.
    In addition, recent reports from the GAO highlight 
continuing challenges with NOAA's satellite programs. The JPSS 
program has been plagued with increasing costs and delays, 
meaning we are probably facing a gap in satellite coverage and 
data. Estimates of the data gap range from an optimistic three 
months in some cases to possibly as much as five years, 
depending on circumstances, in the worst-case scenario outlined 
by the GAO. With a gap, our ability to predict weather would be 
dramatically degraded, putting lives and property in danger. 
This is especially important to me, as my home state is 
Oklahoma, and we are regularly ravaged by tornados.
    Likewise, the GOES program has also experienced increasing 
lifecycle costs and project delays. With the first satellite 
launch now pushed back to March 2016, it is important that the 
program adhere to its already-delayed schedule and prevent 
another gap in satellite coverage and data.
    Given the criticality of JPSS and GOES to our forecasts, it 
is imperative we ensure these programs receive the adequate 
support and oversight to avoid further delays and costs 
overruns.
    I hope we can use this hearing to determine how to keep 
these programs from slipping further and mitigate any possible 
gaps. However, the failures of these programs to stay on track 
so far highlight a recent track record for our satellite 
programs that is less than good, and that the paradigm of 
owning and operating large monolithic satellites might not be 
the way forward.
    To address this problem, we should look to augment our 
satellite systems through commercial means, just as the 
Department of Defense and NASA have done. There is a burgeoning 
commercial industry that has incredible potential to assist us 
in providing accurate information to protect American lives and 
property, disaggregate risk, and save the taxpayers' dollars. 
We need to have the most resilient space-based weather data 
architecture ever. Instead of continuing down the path of large 
government-owned satellites that are prone to cost overruns and 
delays, as we look forward into the future, we must look 
outside the box for new methods of providing essential weather 
data. For example, there are private companies such as 
PlanetIQ, Spire, GeoOptics, Tempus Global Data and HySpecIQ 
that have plans to launch constellations of GPS Radio 
Occultation and Hyperspectral Sounding satellites, two sources 
of data that can greatly enhance our forecasting ability. 
Considering options that reduce the burden on massive 
government satellite systems will allow us to more accurately 
predict weather in future architecture paradigms.
    It has become increasingly difficult to remain optimistic 
about the future of U.S. weather forecasting, which currently 
lags behind the UK, Europe, and Canada in terms of accuracy, 
when we have satellite programs that are plagued with 
increasing costs and perpetual delays. The prospect of gaps in 
satellite data are even higher. We need to look for ways to 
reduce government burdens and eliminate these types of problems 
while increasing our ability to protect American lives and 
property.
    I look forward to hearing from our witnesses today, and I 
would like to recognize our Ranking Member, the gentlelady from 
Oregon, for an opening statement.
    [The prepared statement of Mr. Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Good morning and welcome to the first Environment Subcommittee 
hearing of the 114th Congress. I want to thank the Full Committee 
Chairman, Lamar Smith, for his continued leadership. I'd like to 
congratulate Mr. Loudermilk of Georgia for his assignment as the 
Chairman of the Oversight Subcommittee. Finally, I also want to welcome 
back the ranking member, Ms. Bonamici of Oregon, with whom I have 
worked closely during my time in Congress. I look forward to working 
with you this Congress.
    This Committee has held numerous hearings over the years on NOAA's 
weather satellite programs. Today we continue this oversight by 
examining the status of NOAA's two primary satellite systems, the Joint 
Polar Satellite System (JPSS) and the Geostationary Environmental 
Operational Satellite System (GOES). These satellites collect vital 
data that is fed into numerical weather models used by meteorologists 
to make our forecasts.
    These two programs comprise the lion's share of funding for NESDIS, 
the satellite office at NOAA. In the newly released Fiscal Year 2016 
budget request, NESDIS accounts for over $2 billion dollars, roughly 
40% of the NOAA's total budget. Just seven years ago, in 2008, NOAA's 
budget for satellites was less than $1 billion and was roughly one-
quarter of NOAA's overall spending. The NESDIS budget has grown 
dramatically over the last decade.
    In addition, recent reports from the Government Accountability 
Office highlight continuing challenges with NOAA's satellite programs. 
The JPSS program has been plagued with increasing costs and delays, 
meaning we are probably facing a gap in satellite coverage and data. 
Estimates of the data gap range from an optimistic three months, to 
possibly five years in the worst case scenario outlined by GAO. With a 
gap, our ability to predict weather would be dramatically degraded, 
putting lives and property in danger.
    This is especially important to me, as my home state of Oklahoma is 
regularly ravaged by tornadoes. Likewise, the GOES program has also 
experienced increasing life-cycle costs and project delays. With the 
first satellite launch now pushed back to March 2016, it is important 
that the program adhere to its already-delayed schedule to prevent 
another gap in satellite coverage and data.
    Given the criticality of JPSS and GOES to our forecasts, it is 
imperative we ensure these programs receive the adequate support and 
oversight to avoid further delays and costs overruns. I hope we can use 
this hearing to determine how to keep these programs from slipping 
further and mitigate any possible gaps.
    However, the failures of these programs to stay on track so far 
highlight a recent track record for our satellite programs that is 
poor, and that the paradigm of owning and operating large monolithic 
satellites is broken. To address this problem, we should look to 
augment our satellite systems through commercial means, just as the 
Department of Defense and NASA have done. There is a burgeoning 
commercial industry that has incredible potential to assist us in 
providing accurate information to protect American lives and property, 
disaggregate risk, and save the taxpayers' dollars. We need to have the 
most resilient space-based architecture possible.
    Instead of continuing down the path of large government-owned 
satellites that are prone to cost overruns and delays, we must look 
outside the box for new methods of providing essential weather data. 
For example, there are private companies such as PlanetIQ, Spire, 
GeoOptics, Tempus Global Data and HySpecIQ that have plans to launch 
constellations of GPS Radio Occultation and Hyperspectral Sounding 
satellites, two sources of data that can greatly enhance our 
forecasting ability. Considering options that reduce the burden on 
massive government satellite systems will allow us to more accurately 
predict the weather.
    It has become increasingly difficult to remain optimistic about the 
future of U.S. weather forecasting, which currently lags behind the UK, 
Europe, and Canada in terms of accuracy, when we have satellite 
programs that are plagued with increasing costs and perpetual delays. 
The prospect of gaps in satellite data is higher than ever. We need to 
look for ways to reduce government burdens and eliminate these types of 
problems while increasing our ability to protect American lives and 
property.
    I look forward to hearing from our witnesses today and yield back 
the balance of my time.

    Ms. Bonamici. Thank you very much, Mr. Chairman, and I want 
to begin this morning by offering my congratulations to you, 
Mr. Bridenstine, and to our new Oversight Subcommittee 
Chairman, Mr. Loudermilk, and to our Oversight Ranking Member, 
Mr. Beyer. I would also like to extend a warm welcome to all of 
the new Subcommittee members. We are very fortunate to have the 
opportunity to serve on the Committee on Science, Space, and 
Technology and to help shape policies that are critical to the 
long-term health and prosperity of the Nation.
    This morning's hearing is a fitting way to undertake our 
work. Oversight of NOAA's weather satellites has been a 
longstanding bipartisan effort of this Committee, spanning many 
Administrations and sessions of Congress, and it is my hope 
that this hearing is just the beginning of a productive and 
bipartisan working relationship.
    Now, Mr. Chairman, I doubt that the average American spends 
much time thinking about the weather satellites managed by 
NOAA. We might, but I do know that one of the first things many 
of us do each morning is turn on the television or get on the 
internet or our favorite app to read the day's weather 
forecast, and that is because weather is important, affecting 
everything from our commute to the food on our table. In fact, 
a 2009 study from the American Meteorological Society stated 
that U.S. weather forecasts generated $31.5 billion in profits 
compared to costs of $5.1 billion.
    On this Committee, we have worked on finding ways to 
improve forecasting to protect the American people and the 
economy from the impacts of severe weather, and I am proud to 
be working the Chairman on bipartisan legislation, the Weather 
Forecasting Improvement Act, to advance NOAA's weather research 
enterprise and improve the products and services offered by the 
National Weather Service. That effort is important and ongoing.
    But meanwhile, any loss of coverage from the polar 
satellites or the geostationary satellites would have very 
serious consequences regarding the accuracy and timeliness of 
our weather forecasts and the capabilities of the Weather 
Service. Unfortunately, years of trouble and mismanagement in 
the polar satellite program mean that we will have a gap in 
coverage within the next decade, with the worst-case scenario 
being a gap lasting more than five years. In addition, there 
remains a chance that we face a gap in geostationary satellite 
coverage as well.
    I am certain that we will hear from today's witnesses about 
progress that has been made in this area, and I am pleased that 
NOAA and NASA are working to get these programs back on track. 
I applaud you for your efforts, but we are here today to 
emphasize the importance of maintaining focus on getting these 
programs where they need to be to protect American people and 
our economy. It may be possible to reduce the gap in coverage 
if there is optimal performance by our current satellites that 
enables them to greatly exceed their design lives. 
Additionally, if JPSS-1 and GOES-R launch on time, that may 
reduce the gap in coverage. It is still important that prudent 
managers have plans in place in the event of failure, and it is 
also critical that any gap mitigation strategy is well 
developed and ready to implement.
    Unfortunately, the testimony today from GAO highlights a 
number of concerns with these contingency plans, specifically 
with NOAA's plans to respond to the near-term data gap for our 
polar satellites.
    So the questions and issues for our witnesses today are 
quite simple: How can we best minimize the duration and impact 
of a gap in the polar program? How can we avoid a gap in the 
geostationary program? And are plans to fill gaps in coverage 
appropriately mature, prioritized, and ready to implement?
    The American public may not spend much time thinking about 
where their weather forecasts come from, but they will notice 
if those forecasts aren't reliable. I am looking forward to 
hearing from the witnesses from GAO, NOAA and NASA to discuss 
how their agencies' plans to address the looming gap in 
satellite coverage.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Bonamici follows:]

           Prepared Statement of Subcommittee on Environment
                Minority Ranking Member Suzanne Bonamici

    Thank you, Mr. Chairman. I'd like to begin this morning by offering 
my congratulations to you, Mr. Bridenstine, the new Chairman of the 
Environment Subcommittee, to our new Oversight Subcommittee Chairman, 
Mr. Loudermilk (Louder-milk), and to new Oversight Ranking Member Mr. 
Beyer. I'd also like to extend a warm welcome to all of the new 
Subcommittee members. We are fortunate to have the opportunity to serve 
on the Science Committee and to help shape policies that are critical 
to the long-term health and prosperity of the nation.
    This morning's hearing is a fitting way to undertake our work. 
Oversight of NOAA's weather satellites has been a long-standing 
bipartisan effort of this Committee--spanning many Administrations and 
sessions of Congress. It's my hope that this hearing is just the 
beginning of a productive and bipartisan working relationship.
    Mr. Chairman, I doubt the average American spends much time 
thinking about the weather satellites managed by NOAA, but I do know 
one of the first things many of us do each morning is turn on the 
television or get on the internet or our favorite phone app to read the 
day's weather forecast.
    That's because weather is important, affecting everything from our 
commute to the food on our table. In fact, a 2009 study from the 
American Meteorological Society stated that U.S. weather forecasts 
generated $31.5 billion in benefits compared to costs of $5.1 billion.
    On this Committee, we have worked on finding ways to improve 
forecasting to protect the American people and the economy from the 
impacts of severe weather. I am proud to be working the Chairman on 
bipartisan legislation, the Weather Forecasting Improvement Act, to 
advance NOAA's weather research enterprise and improve the products and 
services offered by the National Weather Service. That effort is 
important and ongoing.
    But meanwhile any loss of coverage from the polar satellites or the 
geostationary satellites would have very serious consequences regarding 
the accuracy and timeliness of our weather forecasts and the 
capabilities of the Weather Service.
    Unfortunately, years of trouble and mismanagement in the polar 
satellite program mean that we will have a gap in coverage within the 
next decade, with the worst case scenario being a gap lasting more than 
five years. In addition, there remains a chance that we face a gap in 
geostationary satellite coverage as well.
    I am certain that we will hear from today's witnesses about the 
significant progress that's been made in this area, and I am pleased 
that NOAA and NASA are working to get these programs back on track. I 
applaud you for your efforts, but we are here today to emphasize the 
importance of maintaining focus on getting these programs where they 
need to be to protect American people and our economy.
    It may be possible to reduce the gap in coverage if there is ptimal 
performance by our current satellites that enables them to greatly 
exceed their design lives. Additionally, if JPSS-1 and GOES-R launch on 
time, that may reduce the gap in coverage. It's still important, that 
prudent managers have plans in the event of failure, and it's also 
critical that any gap mitigation strategy is well developed andready to 
implement.
    Unfortunately, the testimony today from GAO highlights a number of 
concerns with these contingency plans, specifically with NOAA's plans 
to respond to the near-term data gap for our polar satellites.
    The questions for our witnesses today are simple: How can we best 
minimize the duration and impact of a gap in the polar program? How can 
we avoid a gap in the geostationary program? And, are plans to fill 
gaps in coverage appropriately mature, prioritized, and ready to 
implement?
    The American public may not spend much time thinking about where 
their weather forecasts come from, but they will notice if those 
forecasts aren't reliable. I'm looking forward to hearing the witnesses 
from GAO, NOAA, and NASA discuss the agencies' plan of action to 
address the looming gap in satellite coverage.
    I'm also interested in learning how NOAA and NASA are working to 
ensure that we don't face a similar situation in the future. The 
President's fiscal year 2016 budget request includes $380 million for a 
Polar Follow-On program. How will this program make our satellite 
program more robust? Do we need to rethink or modify the model we use 
for acquiring weather data?
    Mr. Chairman, let me end by again offering my congratulations. I 
look forward to working with you and the Subcommittee on important 
issues like those we are discussing today. Thank you and I yield back 
the balance of my time.

    Chairman Bridenstine. Thank you, Ms. Bonamici. I now 
recognize the Chair of the Oversight Committee, the gentleman 
from Georgia, for an opening statement.
    Mr. Loudermilk. Good morning, and thank you, Mr. Chairman, 
and congratulations to you, the Ranking Members of both 
Subcommittees, and especially thank the members of the 
Oversight Subcommittee for being here today.
    And Mr. Chairman, thank you for holding this hearing today. 
This is our first joint Environmental and Oversight Committee 
hearing of the 114th Congress, and I look forward to working 
with you on the oversight of environmental issues important to 
all of us.
    We are here today to hear from GAO, NOAA, and NASA 
regarding the progress of NOAA's polar orbiting and 
geostationary satellite programs, respectively JPSS and GOES-R, 
as well as how the data collected by weather satellites turns 
into weather forecasts depended on by so many in the United 
States, and quite frankly, around the entire world.
    GAO recently published a report detailing its concern that 
the NOAA polar satellite program, JPSS, is facing an 
unprecedented gap in satellite data. GAO believes that, while 
JPSS remains within its new lifecycle cost estimate and 
schedule baselines, recent rises in component costs and 
technical issues during development increase the likelihood of 
a near-term data gap. Additionally, although NOAA has recently 
reduced its estimated potential gap from fifteen to only three 
months, GAO notes that this assessment was based on incomplete 
data, such as the risks posed by space debris to satellite 
hardware. GAO estimates in its report that a data gap may occur 
earlier and last longer than NOAA anticipates.
    Perhaps even more troubling is the potential data gap 
facing NOAA's GOES-R program, the geostationary satellite 
system. Since its inception, the GOES-R program has undergone 
significant increases in cost and reductions in scope, and as 
GAO's report indicates, NOAA has yet to reverse or even halt 
this trend. The program was originally planned to launch mid-
2012, a date that has now been pushed back to March of 2016. 
NOAA will retire one of its two operational satellites this 
year and move its backup satellite into orbit. This means we 
will face a period of up to 17 months without a backup 
satellite in orbit.
    History has shown us that backups are sometimes necessary 
to reduce risk to public safety and the economy. In 2008 and 
2012, the agency was forced to use backup satellites to cover 
problems with operational satellites, a solution we may once 
again find ourselves needing.
    When talking about the consequences of a gap in weather 
data, the first thought in the minds of many is of the 
devastating effects of extreme weather on the ground. My 
professional and personal history, however, demands that I 
discuss another type of weather with which I have quite a bit 
of experience, and that is aviation weather.
    As a private pilot, I know the importance of having 
accurate and timely weather forecasts to assess flying 
conditions. Pilots must evaluate conditions on the ground and 
in the sky throughout the entire flight process, from preflight 
planning to takeoff and landing. If a pilot does not know which 
aviation-specific weather conditions to expect, such as 
embedded thunderstorms, turbulence, and freeze levels, that 
pilot runs the risk of what we call getting behind the plane. 
That is a general aviation phrase which means that the plane is 
responding to the weather and the pilot is responding to the 
plane, and that is a situation that spells trouble for even the 
most seasoned pilots.
    From this perspective, you can see how a gap in weather 
data, and consequently less accurate forecasts, could 
negatively affect not only commercial flight safety, but also 
the $1.5 trillion in total economic activity that the aviation 
industry contributes to the national economy.
    I hope that today's hearing will shed some light on the 
complex issue and cost demands facing NOAA's weather satellite 
programs and that the Subcommittees will walk away better 
equipped to consider these issues moving forward.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Loudermilk follows:]

 Prepared Statement of Oversight Subcommittee Chairman Barry Loudermilk

    Good morning, Mr. Chairman, and thank you for holding this hearing 
today. This is our first joint Environment and Oversight Subcommittee 
hearing of the 114th Congress, and I look forward to working with you 
on the oversight of environmental issues important to us both.
    We are here today to hear from GAO, NOAA, and NASA regarding the 
progress of NOAA's polar orbiting and geostationary satellite programs, 
respectively JPSS and GOES-R, as well as how the data collected by 
weather satellites turns into weather forecasts depended on by so many 
in the United States, and quite frankly, around the world.
    GAO recently published a report detailing its concern that the NOAA 
polar satellite program, JPSS, is facing an unprecedented gap in 
satellite data. GAO believes that, while JPSS remains within its new 
lifecycle cost estimate and schedule baselines, recent rises in 
component costs and technical issues during development increase the 
likelihood of a near-term data gap. Additionally, although NOAA has 
recently reduced its estimated potential gap from 15 to only 3 months, 
GAO notes that this assessment was based on incomplete data, such as 
the risks posed by space debris to satellite hardware. GAO estimates in 
its report that a data gap may occur earlier and last longer than NOAA 
anticipates.
    Perhaps even more troubling is the potential data gap facing NOAA's 
GOES-R program, the geostationary satellite system. Since its 
inception, the GOES-R program has undergone significant increases in 
cost and reductions in scope, and as GAO's report indicates, NOAA has 
yet to reverse or even halt this trend. The program was originally 
planned to launch mid-2012, a date that has now been pushed back to 
March of 2016. NOAA will retire one of its two operational satellites 
this year and move its backup satellite into orbit. This means we will 
face a period of up to 17 months without a backup satellite in orbit. 
History has shown us that backups are sometimes necessary to reduce 
risk to public safety and the economy. In 2008 and 2012, the agency was 
forced to use backup satellites to cover problems with operational 
satellites, a solution we may once again find ourselves needing.
    When talking about the consequences of a gap in weather data, the 
first thought in the minds of many is of the devastating effects of 
extreme weather on the ground. My professional and personal history, 
however, demands that I discuss another type of weather with which I 
have quite a bit of experience: aviation weather. As a private pilot, I 
know the importance of having accurate and timely weather forecasts to 
assess flying conditions. Pilots must evaluate conditions on the ground 
and in the sky throughout the entire flight process, from takeoff to 
landing. If a pilot does not know which aviationspecific weather 
conditions to expect, such as embedded thunderstorms, turbulence, and 
freeze levels, that pilot runs the risk of ``getting behind the 
plane,'' a general aviation phrase which means that the plane is 
responding to the weather and the pilot is responding to the plane, a 
situation that spells trouble for even the most seasoned pilots.
    From this perspective, you can see how a gap in weather data, and 
consequently less-accurate forecasts, could negatively affect not only 
commercial flight safety, but also the $1.5 trillion in total economic 
activity that the aviation industry contributes to the national 
economy.
    I hope that today's hearing will shed some light on the complex 
schedule and cost demands facing NOAA's weather satellite programs and 
that the Subcommittees will walk away better equipped to consider these 
issues moving forward.

    Chairman Bridenstine. Thank you, Mr. Loudermilk. I now 
recognize the Ranking Member from the Subcommittee on 
Oversight, the gentleman from Virginia, for an opening 
statement.
    Mr. Beyer. Thank you, Mr. Chairman. I would like to add my 
congratulations to Chairman Bridenstine and Chairman 
Loudermilk, and we are really looking forward to working with 
you. I am thrilled to work with Ranking Member Bonamici, and 
just join myself with all the comments welcoming the various 
folks.
    I am told that historically, this Committee has been a 
haven of bipartisanship, and in the area of oversight, I really 
hope that we can work together to improve the quality of 
government services and protect taxpayer interests, and from my 
side, I am really looking forward to working with my colleagues 
on both sides of the aisle.
    You know, six years ago I had the remarkable responsibility 
to lead the transition team for President-Elect Obama at the 
Department of Commerce. Seventy-seven days, 6:00 in the morning 
until midnight. I learned to drink coffee for the first time. 
And I very quickly discovered that the number one problem in 
the Department of Commerce were the weather satellites, that 
the things we saw were the cost overruns were many multiples of 
the original idea. There were no reliable launch dates at all. 
We couldn't get the equipment to work. The satellites were 
loaded up with lots and lots of different ideas but none of 
which could work out. They had this tripartite management 
system with DoD, NASA and NOAA, and no one was in charge, so it 
was actually very encouraging to see how far we have come in 
these six years to have narrowed it to where we are.
    But we still had a rocky acquisition with the new series of 
weather satellites, and the polar orbiting satellites 
especially have been troubled. Costs have doubled. The money is 
now buying just two satellites instead of the original 
intention to acquire six, and the satellites that fly will be 
less capable because the instruments are going to be reduced 
from 13 down to just 5, and they are still years behind 
schedule.
    By comparison, the geostationary satellites seem to be 
models of efficiency, but they too have had trouble too with 
cost growth and areas of delays. As satellites that have a 
critical role in weather forecasting, losing coverage of either 
system could have serious, perhaps catastrophic effects on 
public safety. Both the Joint Polar Satellite System and the 
Geostationary Operational Environmental Satellites face this 
possibility of a gap in coverage, and I hope that if we learn 
only one thing today, learning how to really address this gap, 
will help us go forward.
    At this point, the only way to avoid the gap is to be very, 
very lucky, and that is not a really good plan. You know, the 
problem is that the cost of these satellites distorts all the 
rest of NOAA's budget and limits the agency's resources for the 
many, many other important functions that they have--research 
into weather, oceans, climate science. Surely NOAA understands 
that the JPSS program represents a failure and an unsustainable 
model, so going forward, we have to find a more efficient, 
reliable means to put these instruments into orbit, and Mr. 
Chairman, I was interested in your alternatives.
    GAO has been working with this Committee on these satellite 
programs for ten years. Without their expert and committed 
assistance, the Congress and the public would know far less 
about the risks in these programs. Every GAO product and team 
has to be measured on its own terms, but this group that has 
been working on the satellites system is among our very best, 
and I think the Committee has to be very grateful for their 
service.
    For all the lessons that can be learned from the JPSS and 
GOES acquisitions, the most important immediate challenge has 
to be to complete both projects as expeditiously as possible. 
It is great that we have a pretty reliable launch date, but we 
have got to get them in orbit, checked out, and bring their 
data online as quickly as possible, and after years of truly 
worrisome reports, it appears that NOAA and NASA have good 
management teams in place and the contractors are now 
delivering as promised, and the Committee wants to be as 
helpful and supportive as we can as we reach this last stretch 
going into launch.
    At the same time, the news from GAO that NOAA is not well 
positioned on the data-gap mitigation plans in place is 
disappointing, and I hope we learn more today about we are 
going to do that.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Beyer follows:]

            Prepared Statement of Subcommittee on Oversight
              Minority Ranking Member Donald S. Beyer, Jr.

    I want to associate myself with the comments from my colleague, 
Ranking Member Bonamici, in welcoming everyone. I am told that 
historically, this Committee has been a haven of bipartisanship. In the 
area of oversight, I hope that we can work together to improve the 
quality of government services and protect taxpayer interests. I am 
looking forward to working with my colleagues on both sides of the 
aisle.
    NOAA has had a rocky acquisition with the new series of weather 
satellites. The Polar Orbiting satellites have been particularly 
troubled. The costs have doubled. More money is buying just two 
satellites instead of the original intention to acquire six satellites. 
The satellites that fly will be less capable, with instruments reduced 
from 13 to just 5. Finally, the satellites are years behind schedule. 
By comparison, the Geostationary satellites are models of efficiency, 
but they have had trouble too with cost growth in some areas and 
delays.
    As satellites that have a critical role in weather forecasting, 
losing coverage of either system could have serious, perhaps 
catastrophic effects on public safety. Both the Joint Polar Satellite 
System (JPSS) and the Geostationary Operational Environmental 
Satellites (GOES) face a possibility of a gap in coverage--with the 
risks on JPSS being so high that a gap appears to be almost 
unavoidable. At this point, the only way to avoid such a gap is to be 
very, very lucky. Luck is not a plan, and bad luck is as probable as 
good luck.
    The cost of these satellites distorts NOAA's budget, and limits the 
agency's resources for weather forecasting and important research into 
weather, oceans and climate science. Surely NOAA understands that the 
JPSS program represents a failure and an unsustainable model. Going 
forward the agency has to find a more efficient, more reliable means to 
put its instruments on orbit.
    GAO has been working with this Committee on these satellite 
programs for ten years. Without their expert and committed assistance, 
the Congress and the public would know far less about the risks in 
these programs. Every GAO product, and team, has to be measured on its 
own terms. The group that has worked on the satellites system is among 
the best this Committee has ever worked with and we are very grateful 
for your help.
    For all the lessons that can be learned from the JPSS and GOES 
acquisitions, the most important immediate challenge has to be to 
complete both projects as expeditiously as possible. We must get 
working satellites on orbit, checked out, and bring their data on-line 
as quickly as possible.
    After years of truly worrisome reports, it appears that NOAA and 
NASA have good management teams in place and the contractors are now 
delivering as promised. The Committee wants to be helpful and 
supportive as we reach the last stretch going into launch.
    At the same time, the news from GAO that NOAA is not well 
positioned with data-gap mitigation plans in place is disappointing. 
This is an issue I want to hear more about and I hope we can leave this 
hearing with a clear commitment to preparing for what to do should the 
worst happen.

    Chairman Bridenstine. Thank you, Mr. Beyer.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this time I would like to introduce our witnesses. Our 
first witness today is Mr. David Powner, Director of 
Information Technology Management Issues at the GAO. Our second 
witness is Dr. Stephen Volz, Assistant Administrator of the 
National Environmental Satellite Data and Information Service--
NESDIS--at the National Oceanic and Atmospheric 
Administration--NOAA. Our third witness today is Mr. Steven 
Clarke, Director of the Joint Agency Satellite Division at the 
National Aeronautics and Space Administration. We will also be 
joined for questioning by Dr. Alexander MacDonald, Director of 
the Earth System Research Laboratory at NOAA, Chief Science 
Advisor for NOAA's Office of Oceanic and Atmospheric Research, 
and this year's President of the American Meteorological 
Society. Finally, we are joined for questioning by Mr. John 
Murphy, Director of the Office of Science and Technology at the 
National Weather Service for NOAA. Thank you, gentlemen, for 
all being here.
    Pursuant to the Committee rules, all witnesses will be 
sworn in before they testify, so if you would please stand up 
and raise your right hand? Do you solemnly swear or affirm that 
the testimony that you are about to give will be the truth, the 
whole truth and nothing but the truth, so help you God? You may 
be seated. Let the record reflect that the witnesses answered 
in the affirmative. Thank you.
    In order to allow for discussion, please limit your 
testimony to five minutes for your opening statements. Your 
entire written statement will be made part of the record.
    I now recognize Mr. Powner for five minutes to present his 
testimony.

            TESTIMONY OF MR. DAVID POWNER, DIRECTOR,

           INFORMATION TECHNOLOGY MANAGEMENT ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairmen Bridenstine, Loudermilk, Ranking 
Members Bonamici, Beyer, and Members of the Subcommittees, two 
years ago, GAO added potential gaps in weather satellite 
coverage in consultation with this Committee as a high-risk 
area demanding immediate attention from NOAA management.
    Gaps in weather satellite coverage are likely and could 
affect lives and our economy. This morning I will provide a 
brief update on these gaps, contingency plans to address the 
gaps, and an update on the JPSS and GOES satellite 
acquisitions.
    Starting with JPSS, an $11.3 billion acquisition that is to 
result in two polar orbiting satellites expected to be launched 
in March 2017 and December 2021. There has been significant 
progress on both the flight and ground components, and the 
program is expecting to meet its cost and schedule targets. 
However, since July 2013, cost estimates have gone up two 
percent, or over $220 million. The ATMS and CriS instruments 
have had the most significant increases. Although this doesn't 
sound like much, if this cost growth continued annually, the 
program would surpass its cost baseline by 2018 and end up 
costing $2 billion more through 2025.
    The launch date of March 2017 looks good, but a key 
instrument to watch is ATMS. Its delivery slipped 12 months to 
March 2015 as we reported last month but we have now learned 
that there is another three month slip to June. Schedule 
reserves continue to dwindle, and oversight of this June 
delivery is very important to make sure that the March 2017 
launch date holds.
    A key risk to the current operational satellites to note is 
space debris. NASA recently updated its assessment of orbital 
debris, which concluded an increased likelihood at the altitude 
where the JPSS satellites operate. The current operational 
satellite that was originally intended as a demonstration 
satellite was not built with the appropriate shielding to 
protect against small debris the way the first JPSS satellite 
is currently being constructed.
    The likely gap in satellite coverage is 11 months. The 
current operational satellite is expected to last through 
October 2016, and with the March 2017 planned launch date and 
the six month checkout, NOAA could very well be facing a gap in 
coverage from October 2016 through September 2017, as shown on 
the one-page summary in my written statement. Any issues with 
space debris or delays in the JPSS launch or the checkout 
period would result in a larger gap.
    Multiple alternatives exist to prevent or reduce the impact 
of the gap. The best alternatives according to experts include 
extending the use of legacy satellites like POES and obtaining 
data from European mid-morning satellites, obtaining additional 
observations from commercial aircraft and radio occultation, 
enhancing forecast models, and increasingly high-performance 
computing capacity.
    NOAA has improved its satellite gap contingency plans by, 
among other things, adding more alternatives, which now total 
21 mitigation projects. However, there are three things we 
would like to see more done.
    NOAA needs to, one, update its polar satellite gap 
assessment to include changes in the current satellite's 
expected lifespan; two, revise its contingency plan to include 
an assessment of alternatives based on cost, and three, 
prioritize the mitigation projects in its plan.
    Moving now to GOES, a $10.8 billion acquisition that will 
result in four geostationary satellites with the first expected 
to be launched in March 2016. The GOES program continues to 
make excellent progress as all six satellite--as all six 
instruments have completed testing and the program is well into 
the integration and testing phases. The program is currently 
operating within its $10.8 billion lifecycle cost estimate but 
we saw a slight increases in both the ground system and two 
instruments but we think overall the program is on solid cost 
footing.
    We have more doubts whether GOES will meet its scheduled 
launch date because we are seeing delays in key testing dates 
and also because the spacecraft integration testing has moved 
to 24 hours a day, seven days a week testing schedule. 
Maintaining this March 2016 launch date is crucial because an 
operational GOES satellite is expected to reach the end of its 
useful life by April of this year, and GOES-R is expected to 
have a 6-month checkout period. Therefore, there may be no 
backup from April 2015 through September 2016. GOES's latest 
contingency plan released in February of 2014 overall looks 
very good but we would like to see more focus on preventing 
additional launch delays.
    In summary, on the JPSS, we have more concerns about cost 
and schedule, while on GOES we are more concerned about the 
launch date. Both programs are likely to face gaps, and 
improvements to contingency plans need to continue.
    This concludes my statement.
    [The prepared statement of Mr. Powner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Chairman Bridenstine. Thank you, Mr. Powner.
    I now recognize Dr. Volz for five minutes to present his 
testimony.

                 TESTIMONY OF DR. STEPHEN VOLZ,

                    ASSISTANT ADMINISTRATOR,

               NATIONAL ENVIRONMENTAL SATELLITE,

                DATA, AND INFORMATION SERVICES,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Volz. Good morning, Chairmen Bridenstine and 
Loudermilk, Ranking Members Bonamici and Beyer, and Members of 
the Committee, I am pleased to be here today along with my 
colleagues from NOAA, John Murphy and Sandy MacDonald. All of 
us share a desire to ensure that the JPSS and GOES-R series 
programs are successful and support the Nation's weather 
enterprise.
    We appreciate that Congress is supportive of NOAA's 
programs in the Fiscal Year 2015 appropriations bill. With 
these resources, NOAA will continue to provide environmental 
intelligence that is timely, accurate, actionable, reliable 
space-based information that citizens, communities and 
businesses need to stay safe and to operate efficiently.
    Funding stability is essential for NOAA to maintain our 
operational readiness and to continue our progress in our 
critical research programs. For the NOAA satellite portfolio, 
we will provide continuous satellite data for current 
operations while maintaining essential satellite development to 
ensure the continuity of service to our customers and users 
into the future.
    Every day, decisions are made by citizens and individuals 
and businesses based on the weather forecast, and we understand 
and appreciate it is our responsibility to operate the 
satellites that provide those data that go into the weather 
forecast. Our current operational geostationary and polar 
orbiting satellites provide on a 24-7 basis the space-based 
weather data required to support the weather enterprise of both 
the National Weather Service and the private weather industry. 
Research like in Sandy MacDonald's organization and in academia 
use these satellite data to develop products that can help the 
weather forecasters in John Murphy's organization produce those 
improved forecasts. And just yesterday, working together, NOAA, 
NASA and the Air Force launched the Deep Space Climate 
Observatory, or DSCOVR satellite on a SpaceX rocket from Cape 
Canaveral and it is now on its way to its observation point a 
million miles away from the Earth.
    DSCOVR is a NOAA-operated follow-on to NASA's Advanced 
Composition Explorer, or ACE satellite, and as our buoy in 
space for geomagnetic storm warnings, the DSCOVR satellite will 
provide critical in situ data of these approaching solar storms 
in NOAA's Space Weather Prediction Center, or SWPC, and SWPC 
and the NWS provides the alerts, forecasts and warnings to 
commercial users, customers such as the aviation industry, 
telecommunications, operators of the electrical grid system, 
all of whom could be significantly affected by such events.
    Turning to the GOES-R series and JPSS satellites that are 
the focus of this meeting, I am pleased to report that these 
programs are making excellent progress towards their launch 
dates. About this time next year, we will be preparing GOES-R 
at Cape Canaveral for its launch in March of 2016. GOES-R, the 
first in a series of four satellites with significant enhanced 
capabilities over the current GOES satellites, will continue 
NOAA's satellite provisions of 24/7 constant monitoring of the 
Atlantic Ocean, the continental United States, Hawaii, 
California and the Pacific Ocean for weather. Through ongoing 
work at the GOES-R proving ground, we are providing simulated 
GOES-R data to users now so that they will be ready for the 
real data flow immediately after launch and instrument 
commission in 2016.
    NOAA announced recently that GOES-R satellite will be 
placed into operational service immediately following its 
initial onboard checkout period, again to ensure these 
measurements are made available to the Federal and public users 
immediately.
    Moving to JPSS, by March 2017 the second satellite in the 
JPSS program, JPSS-1, will be launched. The launch of JPSS-1 
will continue the numerical--the gains in numerical weather 
prediction modeling that we have benefited from since the Suomi 
NPP satellite was launched four years ago. The high-resolution 
sounders on Suomi NPP, ATMS and CriS, have provided immediate 
benefits to the quality of the NWS weather prediction models 
and ultimately the weather forecasts we all depend on.
    In addition, the VIIRS imager on Suomi NPP has brought much 
improved observations of sea ice in the Alaskan and Arctic 
waters. The NWS and the U.S. Coast Guard are using blended 
products from VIIRS and commercially purchased synthetic 
aperture radar data to better map the ice and warn boats to 
avoid water where sea ice hazards exist.
    The joint NASA-NOAA JPSS team has completed the procurement 
activities for the JPSS-2 instruments to accelerate the launch 
date for that mission. NESDIS is also advancing the development 
of the ground system for the COSMIC-2 radio occultation 
mission. This mission, which will be launched in 2016 in 
partnership with the U.S. Air Force and the National Space 
Organization of Taiwan, will provide thousands of critical 
radio occultation sightings per day and making a significant 
contribution to the NWS weather models.
    In their reports, Mr. Powner and his staff have provided a 
number of observations along with specific recommendations from 
their most recent reviews of the GOES-R and JPSS programs. We 
value the dialog with the GAO as well as with other independent 
reviewers. As I have noted from my years with NASA, preparing 
for review is more benefit sometimes than actually the review 
itself. We concur with their assessments about the importance 
of these missions and need to stay vigilant and focused on 
mission success as indicated in the recommendations, and we 
folded those recommendations into our implementation plans 
moving forward.
    In conclusion, these important programs, GOES-R and JPSS, 
have benefited from the best experience of NOAA, NASA and our 
aerospace partners and are making strong and consistent 
progress towards launch. Data from the satellites will support 
the complex process of developing the weather forecast in a 
three to seven seven day period. We believe these satellite 
programs have potential for success and to be able to provide 
the information needed for decision-making.
    Thank you, and I look forward to answering questions.
    [The prepared statement of Dr. Volz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
       
    
    Chairman Bridenstine. Thank you for your testimony, Dr. 
Volz.
    Mr. Clarke, you are recognized for five minutes.

           TESTIMONY OF MR. STEVEN CLARKE, DIRECTOR,

                JOINT AGENCY SATELLITE DIVISION,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Clarke. Chairmen, Ranking Members and other Members of 
the Subcommittees, good morning, and thank you for the 
opportunity to appear today to provide you information 
regarding NASA's role in and commitment to NOAA's Joint Polar 
Satellite System (JPSS) and Geostationary Operational 
Environmental Satellite-R (GOES-R) series programs.
    JPSS and GOES-R programs are critical to the nation's 
weather forecasting system, environmental monitoring and 
research activities. NASA and NOAA have been partners for more 
than 40 years in developing the nation's polar and 
geosynchronous weather satellites.
    Following the restructure of the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program in 
2010, NASA and NOAA returned to the successful partnership for 
JPSS. A NASA program office for JPSS was created and is staffed 
with a complement of NASA's civil servants and contractors. 
NOAA and NASA established joint agency-level program management 
councils to oversee JPSS and GOES-R and have integrated their 
decision-making processes to efficiently and effectively manage 
this cooperative activity.
    The NASA and NOAA teams have continually demonstrated a 
strong working relationship over the last four years, and as 
Dr. Volz mentioned, I am very pleased and proud the NASA and 
NOAA team in partnership with the U.S. Air Force and SpaceX in 
launching the Deep Space Climate Observatory (DSCOVR), which 
will maintain the Nation's real-time solar wind monitoring 
capabilities. These measurements are critical to the accuracy 
and lead time of space weather alerts and forecasts. Once it 
reaches its destination at the first Sun-Earth Lagrangian point 
L-1, DSCOVR will help provide timely and accurate warnings of 
space weather events like the geomagnetic storms caused by 
changes in solar wind, which have the potential to disrupt 
nearly every major public infrastructure system, including 
power grids, telecommunications, aviation and the Global 
Positioning System (GPS).
    Additionally, in the past four years of our partnership, 
NASA and NOAA have successfully launched the Suomi National 
Polar-orbiting Partnership (NPP) mission and the Total Solar 
Irridiance Calibration Transfer Experiment (TCTE) payload. 
Suomi NPP celebrated its three-year on-orbit anniversary this 
past October, providing operational data to NOAA for use in 
weather forecasting. The satellite was developed to extend the 
record of key observations from the NASA Earth Observing System 
series of satellites and to demonstrate spaceflight and ground 
data-processing technologies for the next generation of 
operational polar-orbiting meteorological satellites.
    The JPSS-1 mission is on track towards the planned second-
quarter Fiscal Year 2017 launch. The spacecraft Integration 
Readiness Review was completed in December and both the Clouds 
and Earth Radiant Energy System (CERES) and the Ozone Mapping 
and Profiler Suite-Nadir (OMPS-N) instruments have been fully 
integrated with the spacecraft. The Visible Infrared Imaging 
Radiometer Suite (VIIRS) and Cross-track Infrared Sounder 
(CrIS) instruments have completed environmental testing and are 
ready for installation onto the JPSS spacecraft.
    The GOES-R series program of four geosynchronous satellites 
continues to make progress toward launching GOES-R, the first 
satellite of the series, in the second quarter of Fiscal Year 
2016, and manufacturing GOES-S, the second satellite of the 
series, with a planned launch date in the third quarter of 
Fiscal Year 2017. Last year, the GOES-R Series Program 
successfully completed the GOES-R spacecraft Mission Operations 
Review and System Integration Review, allowing the spacecraft 
to enter the assembly, integration and test phase.
    NASA and NOAA are committed to the JPSS and GOES-R 
programs, and ensuring the success of these programs is 
essential to both agencies and the Nation. The NASA and NOAA 
teams have established strong working relationships and are 
striving to ensure that weather and environmental monitoring 
requirements are met on the most efficient schedule without 
reducing system capabilities. I am confident the NASA/NOAA 
partnership will successfully develop and deliver the next-
generation polar and geosynchronous weather satellites to our 
Nation.
    Mr. Chairmen and Ranking Members, I appreciate the 
continued support of these Subcommittees and the Congress, and 
would be pleased to respond to any questions you or the other 
Members of the Subcommittees may have.
    [The prepared statement of Mr. Clarke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Chairman Bridenstine. Thank you, Mr. Clarke.
    Members are reminded that the Committee rules limit 
questioning to five minutes. I will now recognize myself for 
five minutes of questioning.
    Dr. Volz, I have heard some of my colleagues suggest that 
NASA should be in charge of procuring satellites and NOAA 
should be in charge of operating weather satellites. Clearly, 
you have a background that include both NASA and NOAA. What are 
your thoughts on this?
    Dr. Volz. Mr. Bridenstine, I think specifically NASA and 
NOAA are working together and in a very productive relationship 
now. NASA is the development agency for us. They do the 
satellite systems engineering, the mission systems engineering, 
the project management of all of our large satellite systems, 
but in a close partnership relationship with NOAA. So with NOAA 
being responsible for the program--overall program from the 
initiation to the requirements to the decisions based on what 
performance the satellites are expected and need to provide to 
the implementation of the data products, the analysis, the user 
community supporting the mission weather projects and all that. 
So it is--to separate those, the beginning-to-end 
responsibility of NOAA as the eventual provider of the weather 
predictions, the weather forecasts from the actual 
implementation would be generally a very--would be a poor 
choice to make.
    The partnership now does recognize the skills of both 
agencies, NASA as a very strong research and development 
organization with systems engineering and mission development 
experience and NOAA as the weather service, the weather 
provider, the agency that knows the requirements and has the 
community outreach and engagement to provide the weather 
products into the future.
    So such a partnership--a change in the partnership would be 
to--would adversely affect the performance, I think, of our 
agency, of NOAA's ability to meets its requirements and deliver 
the services to the Nation.
    Chairman Bridenstine. Is it safe to say that if NOAA is 
responsible for generating the requirements, they should also 
be in charge of the budget and maybe not NASA? NASA can do the 
actual technical innovation but NOAA would be responsible for 
the budget?
    Dr. Volz. That is fair to say, sir, but when you actually 
are implementing a satellite program, it is not a question of 
just setting a set of requirements, handing it over and coming 
back when the satellite is delivered. The development, as we 
have seen in these programs, of satellites takes many years and 
innumerable trades that are made during the design, development 
and testing phase which may affect the ultimate performance of 
the satellite. So it is not a simple question of just setting 
something and waiting for the delivery. There is an iterative 
process which involves active engagement between the user 
community that will use the eventual product coming out of it 
and the implementers, so that is why the partnership as it is 
written where NASA is at the table with NOAA through all of 
those major decision points in the development of the satellite 
is really critical, and yes, the budget should be on the side 
of the organization that is responsible for the requirements 
but the management and the execution requires a very close 
coordination throughout the development process of the system 
as well.
    Chairman Bridenstine. Got it. Thank you.
    Mr. Powner, you mentioned in your testimony that yesterday 
the GAO released its 2015 High Risk Report. JPSS was included 
on that report as was GOES. In 2013, when you were before this 
Committee, you suggested that the likelihood of a satellite 
data gap was ten out of ten. Do you stand by that assessment 
today?
    Mr. Powner. I still say there is a very high probability of 
the gap if you go with the best data, and the best data is NPP 
lasts until October 2016 and you don't launch until March 17 
and you have a six month checkout. Now, there have been a lot 
of discussions about NPP lasting longer, but if you look at 
NOAA's budget submission for Fiscal Year 2016, they are still 
showing a one-year gap based on that data.
    So we go with the best data that the experts out there have 
to say, so I still think it is prudent to go with expected life 
and not bet that it is going to last longer than what the 
experts are telling us. Now, if there is new news, that would 
be good to know, but I think you need to plan accordingly or 
you are kind of playing with fire.
    Chairman Bridenstine. I am down to one minute to go.
    Dr. Volz, do you have a comment on that?
    Dr. Volz. Yes. I think the point that Mr. Powner made, that 
the plans show the mission life design life as the endpoint of 
a satellite is an appropriate way to manage a program. You 
manage a program assuming a design life, and you should be 
prepared for a gap whether it occurs at any point. We could 
lose a satellite at any point because of orbital debris or 
other points. You should have contingencies in place to make 
sure that you can handle such a loss of any asset in space, a 
functionally redundant or a reliable system overall.
    Now, the actual performance of Suomi NPP, which we update 
every year based on performance, shows that our expectation is 
it will last much longer than 2016. That doesn't mean we 
shouldn't prepare for mitigations for potential gap but we 
don't expect that to happen but that doesn't mean we don't plan 
for it.
    Chairman Bridenstine. Got it. Okay. So I have got 15 
seconds. Suomi NPP, you just mentioned, obviously was not built 
for an operational capacity but a test capacity yet it is 
operating right now as an operational satellite. If we knew it 
had operational capabilities, why was it not originally 
designed to be an operational satellite?
    Dr. Volz. Suomi NPP was initially intended to be a test bed 
development demonstration project, was actually called an 
NPOESS preparatory project before--that was the NPP--and was 
intended to give an on-orbit performance demonstration of the 
key NPOESS, which would have been the NPOESS instruments, those 
five instruments that are on there now. During the redefinition 
of the NPOESS program, as Mr. Beyer referenced, in 2007 and 
2008, Suomi NPP was already in development, the instruments 
were being built, and it was determined it would be necessary 
as an operational--to be used operationally even though it was 
a research satellite. That doesn't mean that all the efforts 
didn't go into making the instruments as accurate and careful 
as we could, the spacecraft built to NASA standards as a very 
high-quality instrument and spacecraft, but it was not intended 
from its initial inception to be in operation. It was supposed 
to be a demonstration. It is--we have many examples where 
research satellites are being used for operational purposes 
such as the AIRS instrument on MODIS. It is used operationally 
but it wasn't designed to be an operational asset to begin 
with.
    Chairman Bridenstine. Thank you, Dr. Volz. I now recognize 
the Ranking Member, Ms. Bonamici, for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you for your testimony and for defining your 
acronyms, which in the interest of time, I am not going to do.
    So I wanted to really zero in on who is responsible for 
what. As I understand it, NOAA's mitigation activities really 
fall into two categories: preventing or limiting a gap, and 
reducing a gap if or when one does occur. So Dr. Volz, Dr. 
MacDonald, Mr. Murphy, could you really talk about who at NOAA 
is responsible for coordinating and managing mitigation 
activities?
    Dr. Volz. I will take that first and then I will turn it 
over to my colleagues.
    The preparation for and the activities around preventing a 
gap and mitigating the impact of a gap is a NOAA 
responsibility. On a regular basis, we report directly up to 
the Deputy Under Secretary for Operations on a monthly basis. 
John can talk about the more frequent meetings on the NWS side 
of the house. So we have--it is a NOAA responsibility but there 
are elements that are accomplished within the NESDIS 
organization, my organization, some within Sandy MacDonald's 
organization, some within John's as well, but we all 
integratedly in an integrated fashion report up the chain on a 
regular basis on how all of these different activities are 
progressing.
    So I am responsible on the NESDIS side for extending 
satellite life, preparing the ground systems for the next 
generation, making sure JPSS-1 stays on schedule and is 
delivered on schedule, and I can let John Murphy talk about the 
NWS side.
    Ms. Bonamici. That would be terrific, and I want to save 
time for another couple questions.
    Mr. Murphy. Thank you, ma'am. I just want to thank the 
Congress actually for Sandy supplemental funds that really 
enabled us to accelerate a lot of development activity that 
answered the call for mitigation efforts so things like 
aircraft data, we are now receiving additional aircraft data as 
a result of those funds. They are flowing into our system. They 
are being processed. So that is one example.
    Getting back to, you know, the responsibility, since the 
very beginning of discussions of the mitigation activities, the 
individual line offices--I am the representative for the 
Weather Service but I have been meeting with my colleagues in 
the other line offices in NOAA on a weekly basis to discuss the 
various projects within the line offices and how they 
complement and work together with each other and execute, and 
as Dr. Volz said, we report to our AAs on a monthly basis and 
up to the Director of Operations on a quarterly basis and 
report to the Hill as well on a quarterly basis.
    Ms. Bonamici. Terrific. I am going to let Dr. MacDonald 
take a stab at this.
    Dr. MacDonald. Just quickly. The Sandy supplemental allowed 
us to work on both the assimilation and the models really 
effectively, so there are some improvements that we are going 
to see in the relatively near future that I think will really 
help with the gap.
    Ms. Bonamici. Terrific. And one of the things that Mr. 
Powner said in his testimony was, one of the approaches is 
increasing high-performance computing capacity, and it is my 
understanding that a lot of the work in that area was from the 
Sandy supplemental. Are there still needs in increasing high-
performance computing capacity that can help mitigate any gap? 
Dr. Volz?
    Dr. Volz. I would turn that one over to John from the 
computing side or from Sandy.
    Mr. Murphy. I will take the first stab and let Sandy back 
me since he has really got the expertise here, but there is 
always a need for more computing power. Right now we got a real 
shot in the arm and a big leap in our operational 
supercomputing and now there is a need to keep balance between 
the research computing and the operational computing, and so 
with all the supercomputing we have right now, we are going 
from 700 teraflops to 500 petaflops, and I know that doesn't 
mean anything to anybody other than it is a huge jump in 
capability, and when you look at that five, that five has to be 
split between the primary system and the backup system if you 
have true operational computing so that you never have a down 
time, so that all went on----
    Ms. Bonamici. I don't mean to cut you off but I wanted to 
get another question in. I just wanted to get some input on 
that.
    So a constituent of mine in Oregon recently contacted my 
office and brought to my attention that there is a gap in radar 
coverage along the Oregon coast. So as Dr. Volz noted in his 
testimony, radar coverage and satellite data combine to make 
nowcasting of severe weather events possible. So I am concerned 
about the hole in radar coverage but it is particularly 
worrisome when considered alongside a gap in satellite 
coverage. So any gap in GOES coverage, especially an extended 
one, could have serious consequences for the safety of my 
constituents and the health of the economy.
    So can you please describe what risk factors are most 
likely to cause a delay in GOES, and is this gap in radar 
coverage something that we can address?
    Dr. Volz. From the GOES satellite point of view, I agree 
with Mr. Powner that the largest single risk for the successful 
launch of GOES in March of 2016 is the compressed schedule we 
have right now. All systems, all instruments have been 
integrated to the spacecraft. The spacecraft subsystems are all 
together and we are now entering what we call the acceptance 
test and launch operations phase, which is very compressed. It 
is a very aggressive schedule, but the team is working hard and 
is focused on that. So I think that is the largest risk on the 
flight side of the house.
    We have the amount of reserves that are expected and 
recommended by NASA guidelines, and we follow the NASA 
standards because they were the ones who built the spacecraft 
for us, but we think that is definitely the largest watch item.
    Do I think it is a significant risk? I would say no, not in 
the absolute value. I don't think it is going to--it is so 
large that I am worried about the March 16 launch date but it 
is our largest risk and is something the team is focusing their 
efforts and activities on.
    Ms. Bonamici. Thank you, and I yield back. Thank you, Mr. 
Chairman.
    Chairman Bridenstine. Thank you. I would like to recognize 
Mr. Loudermilk, Chairman of the Oversight Committee, for five 
minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank you to 
all the witnesses who have come today. This is enlightening, 
and I know we have got to find ways to go forward that are much 
better.
    Most of what we have talked about today is the possibility 
of gaps in extreme weather forecasting and the effects it has 
had on public safety which is our greatest concern, but there 
is another side of this as well, and that is the effect it 
could have on the U.S. economy.
    In 1997, I personally experienced that when the Hughes 
satellite, I believe a communications satellite, spun out of 
control. Being in the IT services business, we ended up 
spending almost a month helping industries and businesses 
reposition their satellite dishes to a backup satellite. I saw 
that that gap in service cost these industries millions of 
dollars in down time, in lost productivity. Retailers were not 
able to connect back to their systems.
    This is for anyone on the panel, have we done any estimates 
on what a gap in this data would do to U.S. economy?
    Mr. Powner. I think one of the best examples if you look 
back at Superstorm Sandy when there was a post-evaluation of 
that and you took the polar data out of that forecast, it 
showed--and that forecast was right on. The location, the 
intensity and the timing forecast was spot on, and it helped 
move a lot of people to safe areas and save lives. If you take 
the polar data out of that forecast, it shows that storm dying 
100 miles out at sea, so that is the importance of the polar 
data in terms of predicting severe storms.
    Dr. Volz. And I think I would add to that, as Mr. Powner 
just said, it is the community's reaction to the weather 
forecast that we provide that allows them to mitigate what 
might be great big cost increases. For example, the recent 
snowstorm in New York, the responses in the community--the 
immediate responders can make choices and decisions which can 
lessen the impact of the storm's effect on all of us.
    So the loss of a complete asset, a complete satellite 
system, would be very significant, devastating, but the 
responsibility of our organization is to make sure that loss of 
any particular element doesn't cause that kind of impact, and 
that is the benefit of generating a resilient system which is 
single-fault tolerant, as we say. You can lose any asset and 
still provide the bulk of the return and the needs that we 
have, and that is the objective of building a more robust 
global--I mean geo and low-earth orbit system is that we are 
fault-tolerant. It is not preventing all of them but we are 
tolerant to failures in any single system so that we don't have 
those impacts hitting.
    Mr. Loudermilk. Besides the extreme weather, you know, 
basically what we were talking about here was Sandy and other 
issues, there is weather that we don't consider extreme that 
can have serious consequences on different industries, such as 
the construction industry. In modern construction, there is a 
lot of forecasting done because we have just-in-time delivery 
of materials. You have of course aviation, maritime 
transportation as well as state and local governments who are 
preparing like in Atlanta we experienced snowstorms a couple of 
years ago. What type of impact would we see in the gap on non-
extreme weather forecasting?
    Mr. Murphy. I am unaware of actually a study that has done 
exactly what you are asking, but as Representative Bonamici 
said earlier, I think it was, you know, the benefit is $31.5 
billion, and there is impacts to not only aviation but to many 
different societal benefit areas of society, and as you lose 
confidence in those forecasts, you are less likely to make 
decisions that reap the benefits. So it is sort of a how bad 
does it get before you can really quantify the impact.
    Mr. Loudermilk. Thank you. I have one minute left.
    From what we are hearing that Europe and other nations are 
leading us in their models of weather forecasting, and as I 
think back, the United States of America has always been the 
leader in space exploration, in satellites, in technology. Is 
it possible in the next several years that our U.S. forecasting 
system could be restored to compete with the European model?
    Mr. Murphy. We are closing the gap. It is very close. You 
know, we are talking about--the way the world measures the 
performances on a 500-millibar root mean error doesn't mean 
anything to us on the surface of the Earth, but that is the 
standard, and we are--you know, what separates us is a few 
percent, and so we are very close.
    Mr. Loudermilk. Where would you rank us as compared to 
other countries?
    Mr. Murphy. I just looked at the statistics the day before 
yesterday, and we were number three, not to argue with anybody 
who said we were number four earlier, but it is that close that 
it changes pretty routinely given a weather scenario.
    Mr. Loudermilk. Thank you, Mr. Chairman. I yield back.
    Chairman Bridenstine. Thank you. I would like to recognize 
the Ranking Member on the Oversight Committee, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    I would like to start with Dr. Volz with a--and others with 
a small, then a larger question.
    On NPP, the prediction now is the end of 2016. NASA said, 
``There is an increased likelihood of a collision with space 
debris at the altitudes at which the JPSS satellites fly.'' 
They also talked about NOAA having a rosy view of how long the 
NPP will last. It is just debris that we are concerned about 
with the end of NPP?
    And then the larger question, especially that Chairman 
Bridenstine talked earlier about the many different commercial 
companies getting into launching satellites, what are we going 
to do about space debris in the larger picture?
    Dr. Volz. Well, related specifically to NPP, I think we are 
dealing with a communications here and the way that we analyze 
the expected life, and as Mr. Powner and the GAO have done is 
they used the design life in their analyses, which is 
appropriate because that is the way we set up the initial 
system. Now, as the expected on-orbit life is much longer 
typically than the design life, once you get into orbit and you 
see you don't have infant mortalities, the term we call for 
satellites that die earlier because of something that was built 
in. Once you get past that, the design life is routinely much 
longer. So I would not say they expected the lifetime of Suomi 
NPP will end in 2016. Our analyses show that it is likely to go 
well past 2020. That doesn't mean it is going to be relied--
that we should count on that and then sit back and wait and we 
don't have to launch anything because we have got ten years or 
five years. But we do use very careful analysis on on-orbit 
performance of our satellites and our measurements and the 
instruments to do accurate and continuous updates on the 
performance of those satellites.
    Regarding the orbital debris, it is a common problem. All 
satellites in orbit are dealing with the increase in orbital 
debris. Every time you have a collision, you create more 
debris. It is something we watch. It is something we monitor. 
Our spacecraft are monitored daily and operate. We have 
maneuverable satellites so we move them out of the way when we 
see orbital debris projections, conjunction analysis, we say, 
and we have done that in increasing frequency over the last few 
years as the debris clouds have increased but it is still a 
very--it is a very diffuse cloud, and we move maybe a dozen 
times a year to get out of projected debris. We have not been 
impacted by it--pardon the pun--but we are aware of it, we are 
monitoring it, and we take active steps to prevent it. Now, as 
far as orbital debris, removing the debris from space, I 
don't--I would yield to my NASA colleague here, who probably 
will not like that but----
    Mr. Clarke. Can I defer back?
    Mr. Beyer. Well, let me move on to Dr. MacDonald then.
    Mr. Clarke. Okay.
    Mr. Beyer. The data validation, in the literature here that 
you gave us, you said it took two years to validate the data 
from NPP, and when you look at the charts on the overlap and 
the potential gaps, some of that, as I read, is six months to 
validate the data from some of these new satellites. Why does 
it take that long when we have so much data validation in the 
past?
    Dr. MacDonald. Actually, I think that we can go faster, 
partly because we do have a lot of experience with these 
sensors like ATMS and CRiS and so on, so we have--with our 
Joint Center and with our OAR research colleagues, we think we 
can do better.
    Mr. Beyer. Dr. Volz, the Chairman in his opening statement 
talked about turning to commercial space operations. Does NOAA 
have any concerns about the use of commercial data to fulfill 
the requirements of its polar satellite program?
    Dr. Volz. Regarding the question of commercial space, 
commercial sources of space data and satellite data, we think 
that is probably a very capable and open field into the future. 
We have our backbone system that has been built, I mean, using 
for many, many years, but the capabilities of the commercial 
side over the past few years and looking forward in the future 
are likely to be very significant and are definitely worth 
evaluating and using.
    What we do from the NOAA--what we need to assure from the 
NOAA side is the data that we get meets certain quality 
standards, they are accurate, reliable, traceable, and can be 
validated so that when we use these data in our numerical 
weather models, we get outputs which we trust. We can't just 
take the data because you can get bad outputs which could be 
even worse than no input, than no output. So it is the 
essential nature of us as NOAA and the NWS, NESDIS needs to 
make sure that the data that we get are accurate and can be 
used in the modeling, and we think--and I think looking to the 
future, we will be using--we will be evaluating and there is a 
good probability we will be using some commercial data as long 
as it meets our quality criteria and is consistent with our 
collaboration approaches of open data to be used with our 
partners.
    Mr. Beyer. And Mr. Clarke, I was initially disappointed 
that the climate sensors were eliminated from the satellites, 
you know, the perfect being the enemy of the good enough, but 
now I read that the Radiation Budget Instrument (RBI) and the 
Ozone Mapping and Profiler Suites are going to be on the JPSS-
2. Can you talk about the current status of these instruments 
and do you anticipate they will be ready in time to fly with 
JPSS-2?
    Mr. Clarke. Yes, Mr. Beyer. Those instruments are being 
developed now. They are in the assembly and initial part of 
testing, and so those instruments are on schedule to support 
the JPSS-2 spacecraft. Keep in mind, I think I mentioned in my 
opening remarks too, CERES is kind of the precursor to RBI, and 
so those instruments are all set and ready to go and they are 
installed on JPSS-1. So this is really a continuation from 
JPSS-1 to build continuity between 1 and 2.
    Dr. Volz. And if I could comment too, it is another example 
where the research bases of NASA and the operational bases of 
NOAA work well together. We provide the platform, JPSS-1 and J-
2, and we are--all the operational instruments that we need for 
the weather forecasting are built into it, but the platform was 
also designed in Suomi NPP to accommodate the Radiation Budget 
Instrument, and NASA as the research and development agency 
took the responsibility of that one. They build that, they meet 
our specifications, and together we fly on the same platform 
for a much more efficient approach to making the measurements.
    Chairman Bridenstine. Thank you. The gentleman yields back. 
I recognize the gentleman from Colorado for five minutes----
    Mr. Perlmutter. She was here first and has a higher rank.
    Chairman Bridenstine. The gentlelady from Maryland is 
recognized for five minutes.
    Ms. Edwards. Thank you. I have waited six years on this 
Committee to hear that, and I want to thank our witnesses and 
obviously our Chairpersons and Ranking Members.
    You know, I remember when I first came on to the Committee 
that it was in the throes, I guess the summer of--I don't 
know--2008, and it was at a time when there was great 
consternation about the satellite programs, the management of 
those, the relationship between NASA and NOAA and DoD, and I 
think that we have come--we heard from GAO at that time and I 
think we have come a long way since then, and so I really 
wanted to be able to salute NASA and NOAA for, you know, after 
some period of time in fits and starts figuring out the working 
relationship using the best capabilities of NASA and NOAA to 
make sure that we could try to get this program back on track.
    As the GAO has indicated, you know, we still have some 
challenges obviously and possibilities for gaps in coverage, 
and so that remains a concern for the Committee in addition to 
the predicted cost. I think we started out with the idea that 
we were going to have six satellites. Now we are at two. And so 
this has been a really difficult thing.
    I want to also acknowledge that today in our audience are a 
group of students from the University of Maryland in College 
Park, which is the home to NOAA's Center for Weather and 
Climate Prediction. The home for NOAA is actually in Suitland, 
Maryland, right down the street from my office. I spent a lot 
of time there. I think I did go to observe the NPP launch, and 
thankfully, rather than just being an experimental platform, it 
is usable and operational, because I think that helps in the 
consideration of this discussion.
    I guess the question I have actually has to do with the 
gaps in coverage, and I understand, you know, the imprecision 
with which one can predict whether there is going to be a gap 
or not, but I wonder, Dr. Volz, if you could respond to the 
idea that--of what NOAA's current gap assessment is, and it is 
also my understanding that NOAA is estimating a longer life 
expectancy for NPP than before because of its strong 
performance to date and, you know, so what is your anticipation 
of the operational period for NPP and what activities are being 
undertaken to ensure NPP's longevity?
    Dr. Volz. So thank you, ma'am, for the question. The NPP 
satellite, as I mentioned earlier, is monitored on a regular 
basis and we update its performance projections every year. The 
most recent one shows that we are still operating all primary 
systems on NPP. All the instruments are functioning well and 
within specification, some changes, as we note, as you normally 
do with instruments but the projection is the satellite, 
barring something we haven't seen, is likely to survive and 
work past 2020.
    As far as the steps we are taking to make sure that that 
satellite continues to work, we are very carefully looking at 
all operations that might have life-limiting features on it, 
which is whether is an instrument operation mode that may burn 
out degrade the performance over time faster, but with the 
focus then on making sure that ensuring that the satellite is 
operating effectively for a long time.
    Ms. Edwards. And so in hearing that, I mean, if I look at 
the various scenarios, and I understand the chart that we have 
has been updated since then, but that would mean that we are 
falling more in the range of, you know, a scenario one than we 
are in a scenario three where there would potentially be a much 
wider gap in coverage if we are making some predictions that 
NPP has greater lifespan and capacity than we might have 
thought originally. Is that right?
    Dr. Volz. I believe that is true. Mr. Powner can comment. I 
think the point of those scenarios is not ``we think, this is 
going to fail here,'' but if it were to fail, what would the 
gap be, and I think that is the point of preparing for a gap is 
not that we are trying to project a failure of any individual 
asset, but if an asset fails at a particular time, what is the 
impact on the overall constellation, and that is the planning 
challenge that we have in front of us to make sure that under 
these different scenarios, which are single fault--one thing 
can take out a satellite or a launch that JPSS-1, a launch 
failure could take out a satellite--what is our response to 
that and how do we mitigate the impact if that were to occur. 
It doesn't mean we expect it but it means we have to prepare 
for it.
    Ms. Edwards. Thanks, and just in closing, I just want to 
share with the Chairman and Ranking Members, it is my 
understanding that in the President's budget proposal, there is 
an absolute recognition that we are actually now, with respect 
to these satellites, really not focused on the development of 
climate sensors but really focused on weather, and I think that 
that also represents a change in strategy and direction over 
the last several years, and with that, I yield.
    Chairman Bridenstine. The gentlelady yields back. Without 
objection, I would like to recognize the gentleman from 
Colorado.
    Mr. Perlmutter. Thank you, Mr. Chairman and Ranking Member 
Bonamici. Thank you for letting me participate today. This is 
my first of the Science hearings. I sit on the Energy and the 
Space Committees. I am not on this Committee, but this is of 
great interest to me.
    Like Representative Edwards, I sat on the Rules Committee 
at the time we were going through the NPOESS saga, and you 
know, from 2007, 2008, 2009 and 2010, there was a real question 
how NASA and NOAA were going to work with the Defense 
Department and how we were going to go forward, and that slowed 
things down. There is no ifs, ands or buts about it. That is 
history. We have got to focus on the future. And I appreciate 
the GAO for identifying and focusing on this subject because 
one of my quirks is my favorite channel is the Weather Channel, 
and that is pretty sick actually.
    But Mr. Loudermilk hit on a point that is so important in 
discussing this subject. There is a public safety aspect to 
this and there is an economic aspect to the services you all 
provide, and the potential for a gap here, I think may have 
come from the Bush Administration, the Obama Administration and 
Congress but we have got to deal with that. We cannot allow for 
gaps to grow or we need to shrink these things.
    And so I would start with you, Mr. Powner. What is the best 
way as you have analyzed this to deal with this gap and to 
shrink it if possible?
    Mr. Powner. Well, hopefully NPP does last longer, and we 
are all hopeful that is the case. What is in your control is 
the March 17th launch date of J-1. That cannot slip. So we have 
ATMS as the long pole in the tent and it keeps slipping, and 
the more that slips, the March 17 launch date will be in 
jeopardy, and I am not here saying the sky is falling, but the 
other thing on the October 2016 date--and I keep hearing other 
dates that it is going to last longer. I would like to see it 
in writing. There was a NASA assessment that it was going to 
last three to five years. There is supposed to be a gap 
assessment from 2014. It hasn't been released yet. The budget 
still says one year. So if it is 2020, let us put it in writing 
and say that is where we think it is at.
    We have been at this for a long time, Congressman 
Perlmutter, and the way some sensors were constructed on NPP 
concerns us, and I think that is why the NASA engineers had the 
three- to five-year time frame, VIIRS in particular. VIIRS was 
the--that was a very difficult sensor during the NPOESS days, 
and there were a lot of shortcuts taken when they constructed 
VIIRS and put it on NPP. We know that. I visited Raytheon 
multiple times out in California, and I hear from their 
engineers about that.
    So there are still concerns about that, and I am not here 
to, you know, say that it is not going to be 2020, but we need 
to be aware of the facts, and then when we mitigate the gap, we 
went out and talked to experts including Dr. MacDonald sitting 
on this panel, and there we identified 40 mitigation 
alternatives. NOAA's plans have 21 mitigation alternatives. 
There are four areas that you actually improve the forecast 
much greater than others. We would like to see a prioritization 
on those mitigation activities so that we are addressing the 
most important things as part of the contingency plans.
    Mr. Perlmutter. All right. So I guess--I appreciate that, 
and I would ask that we take those mitigation factors and 
really, you know, exercise them, use them to the best of our 
advantage.
    I think part of where I am coming from is, you know, there 
was a leadership issue back in the NPOESS days, and I would say 
to my friends on the Republican side of the aisle--and we take 
responsibility too--we are coming into a better economy and I 
would want us to assist you all in budgetary ways so that you 
can accelerate this so we are--so that we do meet that first 
launch date, that we can accelerate JPSS-2, that we are moving 
forward. We--things got stalled, then we had a bad economy, and 
we have got to get back on track because the potential loss of 
life and the potential to the economy by missing some of these 
things is too big.
    And so Dr. MacDonald, since we are both Coloradans, I want 
to give you an opportunity to say whatever it is you want to 
say, and I will turn the floor over to you.
    Dr. MacDonald. My comment would be as Mr. Powner just said, 
we are really working hard on many, many ways of improving 
things, a lot of it because of the Sandy supplemental funding, 
so I think there has been a positive that has come out of this, 
and we are excited to see some improvements from those efforts.
    Mr. Perlmutter. Thank you. Thank you, Mr. Chairman. Thank 
you for the opportunity to sit today.
    Chairman Bridenstine. You bet. The gentleman yields back. 
We will go into a second round of questions, and you identified 
ATMS as the critical path for JPSS, and my question is, ATMS is 
on NPP, correct? Did the requirements change between NPP and 
JPSS for ATMS?
    Dr. Volz. No, sir. The requirements did not change. As Mr. 
Powner--as we said, Suomi NPP was built as a preparatory 
program under one set of--there was a--one set of contractual 
arrangements with the vendors. The requirements that NOAA has 
have not changed. The implementation has--some of the--you 
often find problems in the development of an instrument, the 
repeat of processes, et cetera, which may led to a slight 
change in the implementation and that has led to significant 
challenges in the ATMS development.
    Chairman Bridenstine. Okay. I want to talk about some of 
the mitigation efforts. The GAO report indicated that one of 
the best ways that we can mitigate the gap, especially as it 
relates to the polar satellites, would be GPS-RO, radio 
occultation from GPS satellites.
    My question is, how significant is GPS-RO to the numerical 
weather models that help us forecast weather? Dr. Volz, I will 
let you answer that question.
    Dr. Volz. I will turn that over to John.
    Mr. Murphy. Without a doubt, it is in the top 10. All the 
studies around the world show that depending on which one you 
look at, it is number four, five or six. So it is very 
significant. Radio occultation falls right behind the microwave 
and IR sounders.
    Chairman Bridenstine. And correct me if I am wrong, but the 
COSMIC-2 program, which is a joint program between the United 
States and Taiwan, is fully funded for the first six satellites 
of the COSMIC-2 program. Is that correct?
    Dr. Volz. That is correct.
    Chairman Bridenstine. And how many radio occultations per 
day would we get from a COSMIC-2 program?
    Dr. Volz. The COSMIC-2 in whole is 12 satellites, two sets 
of six, and from a combined set of those 12 you end up on the 
order of 10,000 occultations a day.
    Chairman Bridenstine. And the first six, though, are set to 
launch by when?
    Dr. Volz. Next spring, 2016.
    Chairman Bridenstine. And how many would we get from those 
first six?
    Dr. Volz. About half of that.
    Chairman Bridenstine. So 5,000 radio occultations per day?
    Dr. Volz. Correct.
    Chairman Bridenstine. And then as far as what the private 
sector could provide or augment, is there a limitation on how 
many radio occultations per day would--at what point do you get 
diminishing marginal returns from every additional radio 
occultation?
    Dr. Volz. It is a unique measurement type which that 
saturation point is really high. We have looked at studies 
which go 50,000, 100,000 a day, and there is a rollover but it 
is not significant. So certainly we are potentially scratching 
the surface of the value you can get from radio occultations 
with the 10,000 per day.
    Chairman Bridenstine. The Europeans are at 128,000 and they 
haven't reached saturation. So let us say the private sector 
commercial satellites, if they were being launched right now, 
and of course we have got the challenges with testing and 
validation and calibration and all those things that go into 
feeding the numerical weather models, if they were able to 
provide that capability, that would in essence help us augment 
the data going into the numerical weather models, for example, 
to predict thunderstorms in my State of Oklahoma. Is that 
correct?
    Dr. Volz. That is correct, sir.
    Chairman Bridenstine. Right now we don't have an identified 
limitation on the number of radio occultations. When you said 
it was in the top 10, if you had, say, maybe 100,000 or a 
couple hundred thousand radio occultations, would that move it 
up to maybe number two or number three, or is that a stretch?
    Mr. Murphy. Yes, I think it would come up. That is an 
interesting aspect that the more you get in--I think we know 
that 5,000 or 10,000, you get a big improvement and it just 
goes right on, 20,000 or 30,000, so it would help.
    Chairman Bridenstine. So is it safe to say that if there is 
a gap, that the GAO report is indicating might be more likely 
than some others might suggest? If the gap does occur and the 
private sector has the capacity to launch satellites into space 
that could produce 40,000 or 50,000, is NOAA open to the idea--
if those data could be validated and calibrated and fed into 
the numerical weather model, would NOAA be open to the idea of 
maybe purchasing that data from the private sector?
    Dr. Volz. We have been in active communication with a 
number of the vendors who are proposing to launch and fly these 
satellites for us, and yes, we have been in agreement that 
these data could be useful and we would be open to using them 
as soon as--as long as they meet, as we talked about, the 
criteria for reliability, dependability and accuracy. So I have 
had meetings with all of those companies you mentioned up 
front, and actually we have a planned workshop at the end of 
April this year to sit down and show how we do our requirements 
and how they can match their developmental processes to work 
well with us.
    Chairman Bridenstine. And real quick, I am almost out of 
time, Dr. MacDonald, this might be a question for you. When you 
talk about hyperspectral and now that is not going to be 
available on the GOES satellites, how does that impact the 
weather data models for our Nation?
    Dr. MacDonald. I think hyperspectral is another sensor that 
has a lot of potential and we are trying to study that with 
various techniques.
    Chairman Bridenstine. We currently have hyperspectral on 
NPSS, right? Or no, we don't. Do we have hyperspectral in space 
right now?
    Dr. MacDonald. Yeah, we have interferometers that give us 
indication of what you can get from a polar orbiter but there 
is also a geostationary issue that we are trying to learn 
about.
    Dr. Volz. That sensor was originally on GOES. It was called 
HESS, and it was dropped.
    Chairman Bridenstine. Okay. And is there--I am out of time, 
so I am going to turn it over to the Ranking Member for five 
minutes, but thank you for your testimony.
    Ms. Bonamici. Thank you, Mr. Chairman.
    We had some good conversations about how potential gap 
would affect safety, the economy. I want to talk about how it 
would affect research.
    Dr. MacDonald, can you talk about the importance of 
satellite data to NOAA's research, comment on the impact that a 
gap in polar data would have on weather and climate research 
efforts, and then Mr. Clarke, can you talk about the use of 
polar satellite data by NASA scientists and what would a lack 
of continuity--what effect would that have on NASA research?
    Dr. MacDonald. Thank you, Representative Bonamici. It 
does--we really do depend on the polar orbiters and the 
satellite sensors. It is our whole Earth look, and with time, 
we used to--when I started my career, we had little models over 
little areas and now we can do the whole Earth. So these 
sensors you have already heard so much about, the 
interferometers, the microwave. They really are the future, and 
I think forecasts are going to improve because of it.
    So we use one. That is a difficult thing. One area that is 
important is that we use these for also records of how the--
what is happening in climate, so we have lots of in situ 
sensors and lots of satellites. We try and make up by using 
continuity from those.
    Ms. Bonamici. Thank you. Mr. Clarke.
    Mr. Clarke. Yes. Thank you. The NASA Earth research 
community, certainly we collaborate with NOAA and other 
agencies to be able to obtain data from all types of sources. 
NASA has plenty of Earth-observing assets on orbit gathering, 
that kind of information, but it is always good to have 
additional data to help correlate. So there would be some 
impact of not getting that data, but we do have other assets to 
rely on, and if we wanted to get into more detail, I could take 
the question for the record and then talk with my Earth science 
colleagues in NASA and provide you more detail.
    Ms. Bonamici. Thank you. I would appreciate that.
    Dr. Volz, Mr. Powner talked--expressed some concern, 
frankly, about the testing schedule for GOES-R. There is some 
concern that compressing the test schedule increases risks of 
further delays, there would be little time to resolve any 
issues that arise. So how long can the GOES program operate on 
a 24/7 testing schedule, and is there some risk of delaying the 
launch by operating at sort of an intensive schedule and what 
are the alternatives, I guess.
    Dr. Volz. I believe the current plan for the GOES-R is to 
continue the three-shift operation through maybe the end of 
March, early April this year at which point we will be getting 
into the system-level testing, thermal vacuum testing where you 
are working around the clock anyway. There is no definitive 
point that at this point it becomes dangerous to go on with 
three shifts. We have a very capable contractor with Lockheed 
Martin, who has a lot of resources, so there is no--and like I 
said, no point where that would be an issue. But I think the 
launch schedule, however, is still of critical concern, and 
having--it is a single-point flow for these, and if problems 
arise, we will have to deal with it with the reserves that we 
have. We do still have a number of several weeks of unscheduled 
reserve, which for the purposes of that, which is typical that 
you see for a project at this point in development schedule.
    Ms. Bonamici. Thank you. And finally, I was curious about 
the difference between the number of mitigation alternatives. 
Mr. Powner talked about approximately 40 and NOAA talked about 
a little more than 20. So what explains the difference, and how 
are you coordinating to determine which mitigation alternatives 
rise to the top in terms of priority?
    Dr. Volz. That is a good question, and I don't have a list 
of 40 or 20 or the average of those in front of me, and I would 
be happy to sit down with Mr. Powner and with my team 
afterwards to reconcile so we don't have that--I don't think we 
are disagreeing on the things that we need to do but in terms 
of how we numerate I think is maybe confusing, and I don't have 
an answer for you. I would be happy to work with him to clear 
that up.
    Ms. Bonamici. Terrific. I appreciate that. And I yield back 
the balance of my time. Thank you, Mr. Chairman.
    Chairman Bridenstine. Thank you so much. I yield five 
minutes to the Chairman of the Oversight Subcommittee, Mr. 
Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    We have talked a lot about lessons learned and going 
forward, and our focus has been on getting this launch on 
schedule. But my question, Dr. Volz, is, have we started 
planning, has NOAA started planning on the next generation of 
weather satellites?
    Dr. Volz. Yes, sir, we have, and it takes a long time to 
bring a new system online, which is part of the reason we are 
having difficulties over the past with both the GOES and the 
JPSS programs. Both programs were significant steps up in 
technology from the legacy missions that preceded those, so we 
recognize that you don't start five years before; you start ten 
and twelve years before. And part of our planning right now is 
doing the architecture studies and the analyses of what 
measurements we need in the 2030 time frame, what the 
capabilities are now and projected to be in the next few years, 
and we have been doing those for the last year and we expect to 
do those in the coming year, for the next two or three years so 
that in about two to three years we can lay out a plan which 
specifically identifies the next generation including, as we 
mentioned earlier, the changes in the--the landscape of 
commercial sources, launch vehicles and data-processing 
capabilities, which are all part of the next generation. We are 
starting the analysis now.
    Mr. Loudermilk. What changes, if any, have you made to 
avoid the issues that we have faced with the cost overruns, 
gaps, future delays? What kind of changes have you made?
    Dr. Volz. I think one of the major elements from my 
perspective is a rationalization of the requirements and the 
capabilities, and a critical part of doing the architecture up 
front is not to start with a shopping list of too many 
requirements and then figure out how much it costs but to do 
that in an iterative real-time process, look at the 
requirements, look at the implementation costs.
    The other part, which was mentioned in Mr. Bridenstine's 
first question about the relationship between the partners 
doing the implementation is absolutely critical, so the NPOESS 
history was, it was--there was a difficult relationship between 
the three agencies, which almost guaranteed you would have a 
problem between requirements and application and 
implementation, and making sure that you have the right sharing 
of responsibilities and very clear delineation of 
responsibilities is essential as you go forward with the 
planning and going forward.
    Mr. Loudermilk. Thank you. I want to shift back to our 
current subject that we are on, and it is the launch of this 
satellite. We have mentioned mitigation alternatives. Has NOAA 
done a cost-benefit analysis to determine which ones are likely 
to be most effective and worthy of investment?
    Dr. Volz. We are investing in the ones that we think are 
the highest probability. I can't point to a specific cost-
benefit analysis by individual elements but the ones we are 
extending the lifetime of Suomi NPP, enhancing the data process 
and capabilities with the supercomputing capabilities and 
advocating and moving forward with the radio occultation 
measurements are examples of places where we think there is the 
most return on investment and the capability, availability of 
the technical capability to go forward.
    Mr. Loudermilk. Mr. Powner, do you have any thoughts on 
this?
    Mr. Powner. Yeah, this is at the heart of some of our 
recommendations. Not only do you want to focus on the priority 
mitigation activities but you want to focus on the cost, so 
there was a huge discussion here about use of commercial data. 
Commercial data could really help augment our forecast today 
but what is the cost? So you have to factor in costs on all 
these mitigation activities. It is, what is the benefit and 
what is the cost and then you weigh those two, and that is what 
you end up pursuing. We would like to see more of that going 
forward.
    Mr. Loudermilk. Thank you. One last question. Does NOAA 
have any statutory limitations which would allow you to procure 
weather data from private space-based observing systems?
    Dr. Volz. I don't know of any, sir, but I have been with 
NOAA for three months, so I can imagine there are people behind 
me who are saying don't answer that question until you are 
clear, so I will be happy to take that. I don't believe there 
are but I will take that for the record and get back to you.
    Mr. Loudermilk. Okay. I would appreciate it. I yield back.
    Chairman Bridenstine. I would like to thank the gentleman, 
and I would like to recognize the Ranking Member of the 
Subcommittee on Oversight, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    Dr. Volz, when this hearing started at 10 o'clock, my 
biggest concern was about the gap in the weather prediction 
from three months to eighteen months, but listening to the 
testimony, it seems that NOAA's expectation of the NPP 
satellite could well go to 2020 and beyond. Is there any reason 
not to follow up on Mr. Powner's suggestion that NOAA actually 
put these expectations in writing? And does that then change 
the mitigation plans that we would otherwise make?
    Dr. Volz. To the first question, no, I think if we 
haven't--I have seen a draft report on the updated prediction 
and reliability of Suomi NPP, and I don't see any reason why 
that shouldn't be public. I think we will--and I wrote a note 
down when Mr. Powner was saying that that says let us get this 
written down and get it released. I think it to everybody's 
interest to see that.
    As far as the second, I don't think it is going to change 
our approach. Knowing or believing that the satellite will last 
longer than the worst-case scenario doesn't mean the worst-case 
scenario might still occur, and we need to do the mitigation 
activities in any case so that we have a resilient system that 
is accommodatable to major failures which can occur outside of 
our best estimates.
    Mr. Beyer. And Dr. Volz, the President's budget request 
includes $380 million for a polar follow-on program in order to 
achieve robustness in the polar weather constellation. Can you 
please describe the kinds of activities that you would take on 
as part of this polar follow-on request and how they would 
actually improve robustness?
    Dr. Volz. Yes, sir. Thank you. The polar follow-on is--the 
current program of record, which is JPSS, is two satellites, as 
we have identified, one launching in 2017 and the next 
scheduled to launch in 2021 which, by the way, was accelerated 
per additional funding to bring that in a few months so it is a 
quicker return. But a robust program requires that you have 
redundant or a capable system up there in case of a single-
point failure. The polar follow-on establishes the baseline to 
deliver the next two, JPPS-3 and JPPS-4, along the same lines 
using the same vendors, the same demonstrated and proven 
instruments and approaches so that we can have that ready as 
soon as--in the event of a JPSS-2 failure on launch, just like 
we talked about J-1. So the same logic applies in the 
extension.
    What it also does by starting it in 2017 or 2016, as 
requested in the President's budget, it allows us to buy those 
instruments now from the instrument vendors and most of our 
funds go to the industry because the U.S. industry builds these 
instruments for us, allows those instruments to get under 
contract while we have the production line, the expertise and 
the intelligence of the community there to build those 
instruments effectively and efficiently. Having those JPSS-3 
instruments built and ready during the late part of this decade 
is a natural mitigation for if I have a problem with a JPPS-2 
instrument so I can switch and plug in and I can switch out, 
and that also accelerates or provides more reliable delivery of 
the J-2 satellite. So having this suite allows you then to 
ensure that you have the regular cadence of missions available 
when you do.
    Mr. Beyer. And Mr. Clarke, you had kindly deferred when Dr. 
Volz had tossed you the space debris question. Please tell me 
that someone at NASA is thinking big picture about vacuuming up 
the space debris and what is going to look like in the years to 
come.
    Mr. Clarke. Well, I would have to take that for the record 
for the future plans. That may be discussed in other areas 
within NASA that I am not privy to, but I can take that for the 
record.
    I will tell you, though, that for all of our spacecraft 
that are in development now, we do look at those on a case-by-
case basis based on the updated probability in these orbital 
debris models. We also look at the probability and where these 
spacecraft are going, and implement changes if we need to 
protect in certain areas on these spacecraft during 
development. So NASA is just as concerned with on-orbit debris 
and so we continue to look at it.
    Mr. Beyer. Thank you very much. Mr. Chair, I yield back.
    Chairman Bridenstine. Thank you so much. I would like to 
recognize, without objection, the gentlelady from Maryland, Ms. 
Edwards.
    Ms. Edwards. You are so kind, Mr. Chairman. Thank you very 
much.
    I wanted to get back to the ATMS issues, and I wanted to 
hear from Mr. Clarke, because there were some comments about 
ATMS being on a critical path, and I am wondering what your, 
you know, take is on the status of ATMS, and I am a little bit 
curious that if ATMS is integrated in NPP and we are not--maybe 
we have seen some of the problems that we are, you know, 
experiencing with JPSS development, but if that is true, is it 
an integration problem with JPSS rather than an instrument 
problem? And give us an idea of the kinds of things that you 
are concerned about there.
    Mr. Clarke. Well, ATMS is a complex instrument just like 
the rest of the instruments that are part of that suite, and 
the one that is operating on NPP is doing well, but again, 
these are complex instruments. They don't--I don't want to--how 
do I put--they don't come off a production line like many end 
items. They are not stamped copies, so to speak. They are very 
detailed, intricate instruments, and the ATMS that we are 
working on now was manufactured in the early part of that 
NPOESS phase and then turned over as part of the hardware 
afterwards, and so we have found issues with that particular 
when we started going through testing, and due to the 
complexity, we are working through those challenges. It is not 
unlike other development programs where we have had very 
complex instruments and we have had to go in and resolve 
issues.
    The benefit of this, particularly the JPSS program, with 
these instruments, we have been able to work through how to 
integrate those instruments and when, and to preserve the 
schedule for JPSS, and that is what we have done. We have 
worked with our contractors and with NOAA and looked at 
mitigation options of how to keep that on track, the overall 
spacecraft project, which we have done, while we are working 
through the ATMS issues, and we feel like we are beginning to 
get a handle on the issues with ATMS, and I feel confident we 
are going to resolve those problems. But it is not unlike other 
programs where we may have one particular area experience a 
challenge or an issue, and we will work through it and find 
ways to continue to stay on track with the schedule like we are 
doing now.
    Ms. Edwards. Thank you very much, because I didn't want us 
to leave here just thinking while you have got, you know, ATMS, 
NPP, just plop it up and, you know, set it into JPSS and so 
what is the problem, and so I appreciate your comments, and 
with that, I yield the balance of my time.
    Chairman Bridenstine. The gentlelady yields back. We will 
go into a final--or actually the gentleman from Colorado is 
back. You are recognized for five minutes.
    Mr. Perlmutter. Thanks, Mr. Chair.
    Just as a beginning to this, a prelude, you mentioned, Dr. 
Volz, about a suite, you know, sort of assembly, production. I 
think, Mr. Clarke, you talked about production lines. Some of 
these things are very intricate but some things can be built 
sort of not in an assembly-line mode but certainly you can 
prepare and you can have teams of contractors in place.
    So first question I have for you, Dr. Volz, is, if by some 
circumstances the Congress were to appropriate more money to 
try to accelerate and to have an assembly line of one, two, 
three and four, can NOAA absorb that. Can NOAA deal with that? 
Can we acceleration the production schedule and the launch 
schedule?
    Dr. Volz. Okay. That is a very good question, and I think 
the nature of block buys, is often the term used. If you buy a 
bunch of them at once, do you get some efficiencies and 
economies and a better-performing system? And in fact, that is 
the reason for the polar follow-on proposal in the Fiscal Year 
2016 budget, which allows us to buy the third and fourth 
variations of these instruments as contract options with the 
same vendors so they can do exactly that. They can optimize the 
development schedule so the subsystems are integrated and 
brought forward on a regular and reliable place.
    Now, the question of accelerating is a different challenge 
because some of these things are process-intensive and it 
takes, you know, a few weeks for this, a few weeks for that, so 
adding more money----
    Mr. Perlmutter. And I appreciate that. I am just a lawyer. 
You guys are the scientists, you are the engineers, you are the 
technicians. But I guess I come from a spot where, you know, 
President Kennedy said we are going to be on the moon, you 
know, nine, ten years from now, and everybody going wow, how in 
the heck are we going to do it. You guys all figured it out. So 
I don't doubt that if we want to send somebody to Mars we can 
get going on it. If we want to get these satellites built, you 
can do it. We need to provide you with the resources obviously, 
and you know, I am going to be pushing for that kind of thing.
    Mr. Powner, are the teams in place? I mean, because of the 
upheaval and kind of the delays here and there between NPOESS 
and JPSS and to a degree GOES. Are the teams in place if we 
wanted to move this thing forward? Do we have the vendors? Do 
we have--you know, somebody mentioned Lockheed or Ball or 
whomever. Do we have those vendors in place?
    Mr. Powner. Yeah, we currently have vendors in place. We 
have a very solid team on the government side. I think the 
collaboration between NASA and NOAA far better than we have 
ever seen, nothing like we had on NPOESS.
    I do think you have raised a really key question, though, 
about building clones down the road when you start looking at 
J-3 and J-4. There is a fundamental question about how much do 
we advance the sensors and improve versus just building a clone 
and continuing the status quo, and I think that is a tough 
call, especially when you start looking at continuity of 
operations, but that is why this follow-on program is so 
important.
    Mr. Perlmutter. Dr. MacDonald, do you have anything to add, 
since you are from Colorado?
    Dr. MacDonald. No, but thank you for asking.
    Mr. Perlmutter. I yield back, Mr. Chair. Thank you very 
much.
    Chairman Bridenstine. Thank you. Anybody from Oklahoma, by 
the way?
    Mr. Clarke. Does my spouse's family count?
    Chairman Bridenstine. You are my preferred testifier.
    Mr. Clarke. Thank you, and she thanks you.
    Chairman Bridenstine. So we will go into a final round here 
without objection, and I will recognize myself for five 
minutes.
    I was just reading your testimony, Dr. Volz, and you 
indicate that currently NOAA purchases data from the commercial 
sector such as ground-based lightning data and space-based 
synthetic aperture radar data. Is this true, and in what 
quantities and how much do we spend on that as an organization, 
if you know offhand?
    Dr. Volz. I don't know the dollar value. We can get that to 
you, and I am happy to do that.
    As far as how it is used, the synthetic aperture radar data 
is a key element of our ice mapping and Arctic forecast 
measurements that are done with our National Ice Center 
combined with VIIRS Day/Night Band imagery. The local lightning 
data is used by the National Weather Service. I don't know 
again the cost for that but it is a regular input, and John 
Murphy may want to address that in more specific detail.
    Chairman Bridenstine. And just as an example, if we were to 
have a model where we were to purchase data from the private 
sector whether it is GPS-RO or hyperspectral, would these 
models be good ways to go that we are already doing it? Could 
we not do it in other space-related activities?
    Dr. Volz. I think as far as the actual getting under 
contract, they would work fine. The distinction that I would 
make between these particular examples and some of the GPS-RO 
and our global modeling examples is, when we take data and use 
it as part of our global numerical weather prediction models, 
we are also--we are ingesting along with data from European 
satellites, the Japanese satellites and our other partners. We 
have a longstanding relationship with all of our partners who 
share these models that we all share each other's data, and 
that makes all of our models better and makes all of our 
predictions more accurate, and it is the best environment for 
this collaborative engagement.
    If we were to purchase data, we would bring that into that 
environment so we want to make sure that the data are readily 
transferrable and usable by all of our partners, and that is 
one of the key elements, that it is free and open data as far 
as our numerical weather predictions, and I don't think for 
local data around an airport or something like that, that is 
not an issue for that because we don't share that. It is not of 
interest to our international partners.
    Chairman Bridenstine. Okay. So the SAR--but the SAR data 
would not be local, right?
    Dr. Volz. SAR data is an agreement with Canada, the 
Canadian government and their satellite data system there, and 
it is for--it is a mutual benefit. Both Canada and the United 
States are using those data, and we share the outputs both in 
Alaska and the Arctic, and I believe in the Great Lakes region 
as well, again, on a collaborative basis with--it still is 
local but it is local across a particular boundary with a 
specific agreement.
    Chairman Bridenstine. And the lightning data is what you 
would suggest is probably more localized data----
    Dr. Volz. Yes.
    Chairman Bridenstine. --that our international partners are 
not interested in?
    Dr. Volz. Correct, sir, and John, if you want to add?
    Mr. Murphy. Just add that we procure mesonet data, 
lightning data, aircraft data. We are in the process of 
exploring other data sources, data buys, and as Dr. Volz said, 
typically the providers don't want to share their data openly 
but it is a local--more of a local effect.
    Chairman Bridenstine. Got it. I saw in the President's 
budget request there is $380 million for the JPSS follow-on, 
and I want to be really clear, I support JPSS, I support GOES. 
I come from Oklahoma. We have thunderstorms and tornados where, 
you know, in May of 2013 we had 24 of the folks from my state 
get killed, $2 billion worth of damage. It was a big, big deal, 
and of course, that is why I took such an interest in this to 
begin with. So I don't want to see anything happen to JPSS or 
the GOES programs that feed our numerical weather models. I 
want to be really clear about that.
    But I think we need to move to a day where we have a 
different kind of space-based architecture that is resilient, 
that is disaggregated. I know we have been talking about NPP. 
It was launched as a test satellite, and I know it came from 
the NPOESS program, but it is not shielded, and because of 
that, it is susceptible to the space debris that we have had 
conversations about here. But if we were to disaggregate and 
move to a different kind of space-based model where we took 
advantage of commercial technologies that could be launched, I 
think we could move to a day--and we have done it in the 
Department of Defense as it relates to communications. We have 
done it in the Department of Defense as it relates to imagery 
and other kinds of remote sensing. If we could go that 
direction on the weather side of things, I think we would have 
more resilience, we would mitigate data gaps, and we could move 
to a day where we move from JPSS-2 to JPSS-3.
    Maybe we are not having a hearing about a gap that is 
coming and instead we are saying okay, we have got everything 
we need, how do we focus NOAA on doing the things that the 
private sector cannot do, and I think that is the direction 
ultimately where we can go, and the private sector, of course, 
my opinion is, you will get greater innovation, lower cost, 
more competition, all these kind of benefits that we have seen 
NASA take advantage of as well.
    So I guess my ultimate question is, when you think about 
that $380 million from the President's budget request, is there 
any openness to maybe using a portion of that money to create a 
pilot approach where we could purchase from the private sector 
data for NOAA rather than focusing on, you know, buying 
another--and again, JPSS-3, if it is necessary, I am all for 
it, but I want to be clear, if there is an opportunity to take 
a portion of that money and use it to purchase data from the 
private sector, is that something that you are open to?
    Dr. Volz. Well, sir, I think you identified the--the 
targeted funds in the polar follow-on are really essential to 
getting the instruments under contract, and I think of the 380, 
approximately 80-plus percent of that is going directly to our 
commercial space industry, which is building these instruments.
    I do agree with you entirely in the principle that we need 
to be--we need to have a constellation which has both 
backbones, government-supplied solutions, and complemented by 
other alternative approaches, and in the future as the 
capabilities get stronger is likely to be more--is going to be 
more prevalent.
    I think we have to be very careful of the risks to the 
user, the end user, which is if we get commercial approach 
which doesn't work out, we cannot let that compromise our 
ability to provide the weather forecast, and I know you are 
very sensitive to that as well.
    So as far as the $380 million in the polar follow-on, that 
is very carefully targeted to making sure we have that backbone 
system capable through the end of the next decade so that we 
have the opportunity to try these alternative flexible 
approaches without jeopardizing our critical basic performance 
that the Nation expects.
    Chairman Bridenstine. I am out of time. I would like to 
recognize the gentleman from Virginia for five minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    Dr. Volz, in the notes that we had, it said that three 
offices within NOAA have primary responsibility for 
implementing the mitigation plan--NESDIS, OAR and the National 
Weather Service--but the NOAA office appears to be in charge of 
the mitigation activities. Is this accurate? Is there someone 
who should be the central decider and implementer----
    Dr. Volz. As I said----
    Mr. Beyer. --coordinator?
    Dr. Volz. As I mentioned earlier on in the presentation 
here, there are many tasks, whether it is 21 or 40, in terms of 
the mitigation. There are a number of different tasks which 
have different disciplinary requirements, whether it is the 
Weather Service, Oceans Research or NES for satellite 
management and development, and those tasks are developed down 
to those different line offices. We each--we coordinate across 
the organization, and yes, there is a single person in charge, 
and that is the Under Secretary for Operations that we report 
to on a regular basis, and we report to the Secretary as well 
on a --the Under Secretary as well.
    So it is coordinated and reported up through the chain of 
command but the individual activities are delegated down to 
their Centers of Excellence where the expertise is.
    Mr. Beyer. That sounds great.
    Mr. Murphy, if the NPP satellite was lost tomorrow, hit 
with debris, what would be the status of your gap mitigation 
plans now?
    Mr. Murphy. As I said earlier, the aircraft data is 
flowing. We have several other projects that are not matured 
yet. We have improved data assimilation, which will be 
completed first quarter of 2016, and we have some improved 
modeling capabilities that are also coming in early in 2016. So 
really, all we have completed thus far as far as gap mitigation 
has been the studies to demonstrate the impact and the aircraft 
data which was--it is not--none of the mitigation steps that I 
have seen anywhere completely mitigate the loss of the 
satellite.
    I would remind you that we do have legacy satellites up 
there, the earlier NOAA satellites and the earlier science 
missions at this time, so it wouldn't be like we would lose all 
the satellites if it went out right now.
    Dr. Volz. Yeah, and if I could comment on that too, I am 
glad John mentioned it. The POES satellites that were launched 
and are still flying, two of them in that same orbit, have been 
and still are operating. Now, they are older and they could 
fail as well, but if you had a--if the Suomi NPP went down, 
those would still be there.
    What you will lose is that leap forward that I mentioned 
before, that Suomi NPP is much more capable than previous ones, 
but the backbone, we have infrared sounding and we have 
microwave radiometry out of those satellites, which would still 
be part and are used by the models and predictions.
    Mr. Beyer. Mr. Powner, do you a reaction to this?
    Mr. Powner. Yeah, I think clearly what we heard on the 
mitigation activities, there were four areas, and one was--four 
primary areas that are the priorities, and one is extending the 
life of the existing POES satellites along with using the 
midmorning European satellites, and that actually came from 
folks sitting at this table, so we had them prioritize what the 
improvements in the forecast would be, that radio occultation, 
commercial aircraft, the high computing capacity as well as the 
improvements in the models. Those are the priority areas.
    Mr. Beyer. Mr. Chairman, I yield back the balance of my 
time.
    Mr. Perlmutter. Mr. Chairman?
    Chairman Bridenstine. Yes.
    Mr. Perlmutter. Rumor has it, Mr. Powner, you are from 
Colorado?
    Mr. Powner. Yes, I am.
    Mr. Perlmutter. All right. I am so glad I asked you 
questions. I yield back.
    Chairman Bridenstine. All right. I would like to recognize 
the gentleman from Texas, Dr. Babin, for five minutes.
    Mr. Babin. Thank you, Mr. Chairman.
    Dr. Volz, in April of 2013, NOAA removed funding for three 
years of operations at the end of JPSS missions to keep the 
lifecycle cost of the program around $11 billion, two-part 
question. Even though JPSS-2 will be operational through 2028, 
operations, I see, are only funded through 2025. Is this a 
gimmick to hide the true cost of the program?
    Dr. Volz. I can't speak to that specifically, sir. I will 
definitely go back and check and see what the funding--how the 
fundings are distributed. We certainly will operate the 
satellite as long as it is functioning and operating 
effectively.
    Mr. Babin. Okay. Are you anticipating no funding for a 
fully operational satellite program or are you anticipating 
that we will find more money after the satellite is airborne?
    Dr. Volz. You are talking about post-2025, sir?
    Mr. Babin. Yes.
    Dr. Volz. Well, the polar follow-on proposal that we have, 
which is to build the J-3 and J-4 instruments, includes in it 
the operational--in the long run. It is outside of this budget 
cycle particularly. It includes the operation and maintenance 
costs for these polar satellite constellation to the 2038 is 
the expected lifetime of those satellites as well. Whatever 
satellites are in orbit, we will be operating within those 
budgets as defined in our program.
    Mr. Babin. Okay. Thank you. And then one other question for 
Mr. Clarke. Where did the space debris come from that has led 
to the degradation of our polar orbiting satellites?
    Dr. Volz. Well, sir, I can't comment in detail since I am 
not very--I don't have a lot of insight into it, but I do know 
the latest model using data from the last ten years, shuttle 
data particularly, that helped update those models. As far as--
that is probably the level of detail I know. I can take that 
for the record and go back and get some more information for 
you if you would like.
    Mr. Babin. Okay. And then Mr. Powner, how important is 
improving NOAA's supercomputing capabilities to mitigating a 
data gap?
    Mr. Powner. It is clearly one of the top priorities.
    I would also like to address the space debris that you just 
mentioned. Clearly, there has been an increase in space debris 
but there has also been some unfortunate incidents that 
contributed to the space debris. In 2009, there was an iridium 
satellite that hit a Kosmos satellite that increased the space 
debris and then also unfortunately in 2007, there was a Chinese 
military operation where they shot a satellite as part of their 
military ops, and that contributed to space debris. So those 
events in 2007 and 2009 clearly contributed to the space debris 
issue.
    Mr. Babin. Absolutely. Thank you.
    Dr. Alexander MacDonald and Mr. Murphy, where does our 
supercomputing capacity rank relative to the rest of the world?
    Dr. MacDonald. I think that in--if we talk about our 
operational computing, it has been behind for quite some time. 
However, it was recently announced that we are going to get a 
major upgrade to our operational computing. I think it is 
actually five petaflops this fall, and I think that puts us on 
a par with the others, and I want to say that that is a big 
part of the mitigation, that is, we think with that additional 
computing, it is going to help us a lot in our predictions and 
help for the gap.
    Mr. Babin. Okay. One other thing. Should NOAA be placing a 
higher priority on this?
    Dr. Volz. It has been a top priority. So, I have problems 
with all this discussion of priorities about these mitigation 
efforts because every mitigation step that I know has been a 
top priority for us.
    Mr. Babin. Okay. Thank you.
    One thing else. I am sorry. Do you feel budgetary pressures 
elsewhere in NOAA's budget prevent you from having access to 
the best resources?
    Dr. Volz. I am not sure if that is directed to all of us, 
sir. I don't believe we have pressures that limit us from doing 
the right thing and making the right choices.
    Mr. Babin. Okay. Thank you. That is all. I yield back the 
rest of my time.
    Chairman Bridenstine. Okay. We are coming to the end here, 
and Dr. Babin, your question about the operations piece of this 
where we are funding a technology that is, JPSS-2 specifically, 
which will last through 2028, and the operations side of it is 
only funded through 2025 in order to hold the cost of the 
program down to $11.3 billion. That is something that we will 
need to have addressed as we are at the end of this hearing. 
Maybe we can get that for the record.
    And then also lastly, before we close out, I would just 
like to--Dr. Volz, I asked the question. I just want to get it 
on the record. If you are open, whether it comes from the $380 
million for JPSS-3 or some other place, are you open to a pilot 
approach where NOAA would fund a certain amount of money to buy 
private satellite data, whether it is JPSS or GPS-RO or 
hyperspectral, to purchase it from the private sector for the 
purposes of resiliency and disaggregation?
    Dr. Volz. I think we are open to buying appropriate data 
with the quality and the validation capabilities that meet our 
needs, and using that as an input into our numerical weather 
models, and we are happy to work with vendors to define a 
process by which we can validate the quality of their data sets 
and the reliability of them.
    Chairman Bridenstine. Could NOAA be an anchor tenant for 
that project?
    Dr. Volz. I am not sure that I would call it an anchor 
tenant because the question is, do we invest in their 
development costs on the premise that the outcome will be 
something we can use, and that is a higher-risk approach than I 
would prefer to take from the NOAA side.
    I am not in the--I don't think it should be appropriate for 
us to develop a commercial capability that we might use in the 
future. I am happy to look at their data. I am happy to work 
with them on the way that they are developing their approaches 
in an open forum, and if it meets criteria, I am happy to buy 
it and use it.
    Chairman Bridenstine. Would you have had that same position 
on the NPOESS program had you been at NOAA back when that 
started?
    Dr. Volz. Oh, boy. I am not going to answer that one, sir. 
I am sorry.
    Chairman Bridenstine. Well, I appreciate your testimony. I 
thank the witnesses for their testimony and the Members for 
their great questions.
    The record will remain open for two weeks for additional 
comments and written questions from Members. The witnesses are 
excused and this hearing is adjourned. Thank you so much.
    [Whereupon, at 11:53 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                      Answers to Post-Hearing Questions
Responses by Mr. David Powner
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Dr. Stephen Volz
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Mr. Steven Clarke
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Responses by Dr. Alexander MacDonald
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Mr. John Murphy
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
